<html>
<title> - A COHESIVE STRATEGY IS NEEDED TO ADDRESS CATASTROPHIC WILDFIRE THREATS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
59-491 <l-ar/r-ar>

1999

 A COHESIVE STRATEGY IS NEEDED TO ADDRESS CATASTROPHIC WILDFIRE THREATS

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                     JUNE 29, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-42

                               __________

           Printed for the use of the Committee on Resources




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                                 ______
                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado         RUSH D. HOLT, New Jersey

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

               Subcommittee on Forests and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JOHN J. DUNCAN, Jr., Tennessee       ADAM SMITH, Washington
JOHN T. DOOLITTLE, California        DALE E. KILDEE, Michigan
WAYNE T. GILCHREST, Maryland         OWEN B. PICKETT, Virginia
JOHN PETERSON, Pennsylvania          RON KIND, Wisconsin
RICK HILL, Montana                   GRACE F. NAPOLITANO, California
BOB SCHAFFER, Colorado               TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
                     Doug Crandall, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                  Jeff Petrich, Minority Chief Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held June 29, 1999.......................................     1

Statements of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     1
    Herger, Hon. Wally, a Representative in Congress from the 
      State of California........................................     2
        Prepared statement of....................................     3

Statements of witnesses:
    Hill, Barry, Associate Director, Resources, Community, and 
      Economic Division, General Accounting Office; accompanied 
      by Chet Joy, Senior Evaluator, Natural Resource Management 
      Issues; Charles Cotton, Assistant Director, Resources, 
      Community, and Economic Development........................     6
        Prepared statement of....................................     8
    McDougle, Janice, Deputy Chief, State and Private Forestry, 
      U.S. Forest Service, and Denny Truesdale, Assistant 
      Director, Fire and Aviation Management.....................    11
        Prepared statement of....................................    12

 
 A COHESIVE STRATEGY IS NEEDED TO ADDRESS CATASTROPHICWILDFIRE THREATS

                              ----------                              


                         TUESDAY, JUNE 29, 1999

              House of Representatives,    
                    Subcommittee on Forests and    
                                         Forest Health,    
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, 2:04 p.m., in 
Room 1324, Longworth House Office Building, Hon. Helen 
Chenoweth, [chairwoman of the Subcommittee] presiding.

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. The Subcommittee on Forests and Forest 
Health will come to order.
    The Subcommittee is meeting today to hear testimony on the 
GAO report entitled, ``A Cohesive Strategy Is Needed to Address 
Catastrophic Wildfire Threats.''
    Under rule 4(g) of the Committee rules, any oral opening 
statement at hearings are limited to the chairman and the 
Ranking Minority Member. This will allow us to hear from our 
witnesses sooner and help members keep to their schedules. 
Therefore, if other members have statements, they can be 
included in the hearing record under unanimous consent.
    We are here today to discuss the recently released General 
Accounting Office report entitled, ``A Cohesive Strategy Is 
Needed to Address Catastrophic Wildfire Threats.''
    Of the 191 million acres managed by the Forest Service, 70 
percent are located in the dry, interior western United States. 
And, according to the Forest Service, 39 million of these acres 
are at abnormally high risk of catastrophic fire. The GAO calls 
the region a tinder box. The problem is an over-accumulation of 
vegetation that can turn to what would otherwise be a low-
intensity fire, which in most instances would not hurt larger 
native trees, but turn it into a blazing catastrophic fire that 
destroys everything in its path.
    The question is, will the Forest Service be able to reduce 
excessive fuels accumulation on National Forest lands in a 
timely and responsible manner? I have serious doubts because of 
the points raised by GAO in this report. There is a major 
disconnect between Forest Service rhetoric and its actions.
    And, sadly, what is at stake are the lives of local 
residents and firefighters, the environmental health of our 
national forests, and the protection of adjacent state and 
private forests and property, and the economic well-being of 
local communities.
    Not only do I look forward to hearing the GAO discussion on 
this report, but I look forward to hearing exactly how the 
Forest Service intends to act on this critical issue.
    With that, I would like to welcome Mr. Barry Hill, the 
Associate Director for Energy Resources and Science Issues with 
the GAO for his testimony.
    And I would ask that Mr. Hill to come to the witness table. 
Mr. Hill will be accompanied by Mr. Chet Joy, who is the Senior 
Evaluator, Natural Resource Management Issues, and Mr. Charles 
Cotton, Assistant Director, Resources, Community, and Economic 
Development.
    And I would like, under unanimous consent, to ask if there 
are any other opening remarks. I see Mr. Herger has joined the 
Subcommittee.
    Do you have any opening remarks, Mr. Herger?
    Mr. Herger. I do, Madam Chair.
    Mrs. Chenoweth. You are recognized for your opening 
remarks.

 STATEMENT OF HON. WALLY HERGER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Herger. Madam Chairman, members of the Subcommittee, I 
thank you for arranging this hearing today on this issue of 
such great importance.
    The danger of wildfires is particularly severe in forests 
in the western United States. I personally have all or part of 
11 national forests in my Northern California district and am 
gravely concerned about this impending threat.
    Unlike other forests in other parts of the country, forests 
in the West suffer from unusually high incidents of fire. 
Historically, the forest floors were less dense and were 
naturally and regularly thinned by lightning and native-caused 
fires that would clean out dense underbrush, allowing large 
trees to grow even larger.
    However, because of decades of well-meaning but aggressive 
fire-suppression practices, these forests have grown out of 
hand, creating an almost overwhelming threat of catastrophic 
fire. In some areas, our national forests are two to three 
times denser than they were in 1928. Thick undergrowth, 
combined with increasingly taller layers of intermediate trees, 
has turned Western forests into deadly fire time bombs.
    Now, when a fire starts, it quickly climbs up the dense 
tree growth like a ladder until it tops out at the uppermost or 
``crown'' level of the forest and races out of control as a 
catastrophic fire. Because of their high speed and intense 
heat, ``crown fires'' are nothing like the normally healthy 
fires of the past, but have the capability of leaving an almost 
sterile environment in their wake with almost no vegetation, 
wildlife, or habitat left behind.
    Unfortunately, the Forest Service has failed to address 
this critical threat. The following account provides a 
troubling example of the Forest Service's failure to take 
action:

    In northern California, in the summer of 1996, at a time 
when uncommonly severe storms resulted in massive tree blow-
downs, which further exacerbated the threat of catastrophic 
wildfires, the Clinton-Gore Administration directed a 
completely hands-off approach to these areas of extreme fire 
danger. This management ban occurred despite the almost 
desperate pleas of a local forest supervisor who was begging 
for the authority to act, emphatically informing her superiors 
that the hands-off mandate was unworkable and dangerous and 
would result in catastrophic fire.
    Yet, the Washington office only allowed her limited access 
to the areas she wished to enter to remove massive amounts of 
downed material. This material, once removed, would have 
greatly reduced the fire risk and could have also generated a 
net profit to the U.S. treasury and the local communities as a 
salvage-timber sale. Thus, a potential win-win was, by 
inaction, turned into a lose-lose.
    The Quincy Library Group legislation, which I authored and 
which passed the Congress overwhelmingly last year, provides, I 
believe, a win-win solution for our communities and a model for 
responsible Forest Service management.
    The QLG legislation mandates two specific resource 
management activities that will significantly reduce the risk 
of catastrophic fire while also providing for the economic 
well-being of local communities. The success of the QLG plan 
will prove that forest health and economic stability are not 
mutually exclusive. And it will prove that for forest 
management to be successful, local collaboration must take 
precedence over Washington-based directives.
    The threat of wildfire discussed here today is not 
irreversible. Using the QLG as a model, the Forest Service can 
take proactive steps to improve forest health on all our 
Western national forests through an aggressive policy that 
focuses on thinning out of smaller trees and dense underbrush 
to restore our forests to their historic healthy conditions. 
Regrettably, however, because of a top-down, Washington-based 
approach to forest management that has virtually paralyzed the 
Forest Service, this necessary policy is not being implemented. 
In the meantime, forest health deteriorates rapidly, the threat 
of catastrophic fire looms, and our communities suffer 
economically.
    Madam Chairman, each national forest is unique. And it is 
unacceptable for the administration to assume that it can 
manage this emergency situation better from Washington than the 
local foresters can from their own local areas.
    Thank you.
    [The prepared statement of Mr. Herger follows:]

 Statement of Hon. Wally Herger, a Representative in Congress from the 
                          State of California

    Madam Chairman, Members of the Subcommitte, thank you for 
arranging this hearing today on an issue of such great 
importance.
    The danger of wildfire is particularly severe in forests in 
the western United States. I personally have all or part of 
eleven national forests in my northern California district, and 
am gravely concerned about this impending threat. Unlike other 
forests in other parts of the country, forests in the West 
suffer from unusually high incidents of fire. Historically, the 
forest floors were less dense and were naturally and regularly 
thinned by lightening and native-caused fires that would clean 
out dense underbrush allowing large trees to grow even larger. 
However, because of decades of well-meaning but aggressive fire 
suppression practices, these forests have grown out of hand, 
creating an almost overwhelming threat of catastrophic fire. In 
some areas, our national forests are 2 to 3 times denser than 
they were in 1928. Thick undergrowth, combined with 
increasingly taller layers of intermediate trees, has turned 
western forests into deadly fire time bombs. Now when a fire 
starts, it quickly climbs up the dense tree growth like a 
ladder until it tops out at the uppermost, or ``crown,'' level 
of the forest and races out of control as a catastrophic fire. 
Because of their high speed and intense heat, ``crown fires'' 
are nothing like the normally healthy fires of the past, but 
have the capability of leaving an almost sterile environment in 
their wake with almost no vegetation, wildlife, or habitat left 
behind.
    Unfortunately, the Forest Service has failed to address 
this critical threat. The following account provides a 
troubling example of the Forest Service's failure to take 
action. In northern California in the summer of 1996, at a time 
when uncommonly severe storms resulted in massive tree blow 
down which further exacerbated the threat of catastrophic 
wildfires, the Administration directed a completely ``hands-
off'' approach to these areas of extreme fire danger. This 
management ban occurred despite the almost desperate pleas of a 
local forest supervisor who was begging for authority to act, 
emphatically informing her superiors that the ``hands off'' 
mandate was unworkable and dangerous, and WOULD result in 
catastrophic fire. Yet the Washington office only allowed her 
limited access to the areas she wished to enter to remove 
massive amounts of downed material. This material, once 
removed, would have greatly reduced the fire risk, and could 
have also generated a net profit to the treasury and the local 
communities as a salvage timber sale. Thus, a potential win-win 
was, by inaction, turned into a lose-lose.
    The Quincy Library Group legislation, which I authored and 
which passed last Congress overwhelmingly, provides, I believe, 
a win-win solution for our communities and a model for 
responsible forest service management. The QLG legislation 
mandates two specific resource management activities that will 
significantly reduce the risk of catastrophic fire, while also 
providing for the economic well being of local communities. The 
success of the QLG plan will prove that forest health and 
economic stability are not mutually exclusive, and it will 
prove that, for forest management to be successful, local 
collaboration must take precedence over Washington-based 
directives.
    The threat of wildfire discussed here today is not 
irreversible. Using the QLG as a model, the Forest Service can 
take proactive steps to improve forest health on all of our 
western national forests, through an aggressive policy that 
focuses on thinning out of smaller trees and dense underbrush 
to restore our forests to their historic healthy conditions. 
Regrettably, however, because of a top-down, Washington-based 
approach to forest management that has virtually paralyzed the 
Forest Service, this necessary policy is not being implemented. 
In the meantime, forest health deteriorates rapidly, the threat 
of catastrophic fire looms, and our communities suffer 
economically. Madam Chairman, each national forest is unique, 
and it is unacceptable for the Administration to assume that it 
can manage this emergency situation better from Washington than 
the local foresters can from their own local area.
    Thank you.

    Mrs. Chenoweth. Thank you, Mr. Herger.
    And now the Chair recognizes Mr. Adam Smith for any opening 
remarks.
    Mr. Smith. Thank you, Madam Chairman. I thank you for 
bringing this important subject before us, the Subcommittee. I 
look forward to the testimony from the witnesses.
    I guess what I am most interested in, in this area, is 
something that we have been talking about for quite sometime, 
is the need to thin out areas for fire protection, also bug 
infestation and other concerns that are threatening the forest 
health.
    There seems to be an incredibly wide gap, however, between 
people's views on what this sort of thinning means, how 
extensive it is. And there is wide suspicion on behalf of the 
environmental community that the thinning is primarily aimed at 
resource extraction, and there's images back to the salvage 
rider and concerns about that.
    I guess in my work in politics, I have never seen such a 
divergent opinion on such an issue. It seems to me that we 
ought to be able to reach some sort of consensus on it. And 
what I am most interested in, in hearing from the witnesses, is 
how can we arrive at that consensus?
    And if we are talking about underbrush--actually haven't 
gone out and looked at this, although I am going out this 
August to look at some forests back in my home state to get a 
look at the problem and understand it, what exactly are we 
talking about in terms of how much is going to be thinned out. 
What does this have to do with cutting down trees, if we are 
just talking about cleaning out underbrush? And is there some 
way we can bridge a gap between the folks who tend be on--if 
you go back to the traditional battlefront of the timber 
companies and loggers on one side, environmentalists on the 
other, there is this wide gap in there.
    The timber companies say, gosh, we have to do this thinning 
for forest health; the environmentalists say that is just a 
ruse to cut down more trees. They don't, in my experience in 
talking with them, deny that there is a problem with the 
underbrush and that thinning could be part of it.
    But their alternative argument is: fine, let's focus on 
forest health as the pre-eminent issue and forget about 
resource extraction and just talk about what we do need to make 
the forests healthy.
    So if you gentlemen and anyone else who testifies can help 
me bridge that gap, that is what I am most interested in, 
because what is undeniable is that we do have a problem in 
terms of forest health in this country. And I would like to go 
past--get past the arguments over what to do about that and get 
to doing something about it.
    So that is what I would be interested in hearing from, and 
I thank the Chair for the opportunity.
    Mrs. Chenoweth. I thank my Ranking Minority Member for his 
statement.
    We are only going to have one panel today, and so I would 
like to call Ms. Janice McDougle up to join the witness table.
    Ms. McDougle is Deputy Chief of State and Private Forestry 
with U.S. Forest Service here in Washington, and she is 
accompanied by Mr. Denny Truesdale, Assistant Director of Fire 
and Aviation Management.
    Welcome.
    As explained in our first hearing, it is the intention of 
the chairman to place all witnesses under the oath. It is a 
formality of the Committee that is meant to assure open and 
honest discussion and should not affect the testimony given by 
the witnesses. I believe all of the witnesses were informed of 
this before the hearing and that they have each been provided a 
copy of the Committee rules.
    And so if all five of you would please stand and raise you 
right arm to the square?
    [Witnesses sworn.]
    And now we recognize Mr. Barry Hill for his testimony.

    STATEMENT OF BARRY HILL, ASSOCIATE DIRECTOR, RESOURCES, 
 COMMUNITY, AND ECONOMIC DIVISION, GENERAL ACCOUNTING OFFICE; 
  ACCOMPANIED BY CHET JOY, SENIOR EVALUATOR, NATURAL RESOURCE 
    MANAGEMENT ISSUES; CHARLES COTTON, ASSISTANT DIRECTOR, 
         RESOURCES, COMMUNITY, AND ECONOMIC DEVELOPMENT

    Mr. Barry Hill. Thank you, Madam Chairman, and as always, 
it is great pleasure to appear before this Subcommittee. We are 
here today to discuss the status of efforts by the Forest 
Service to develop a cohesive strategy to reduce the threat of 
catastrophic wildfires in the national forests in the interior 
West.
    And, if I may, I would like to briefly summarize my 
prepared statement and submit the full text of the statement 
for the record.
    Mrs. Chenoweth. Without objection, so ordered.
    Mr. Barry Hill. As you well know, in April we did report 
that many national forests in the interior West as well as 
nearby communities are increasingly threatened by large, 
catastrophic wildfires caused by the excessive accumulation of 
vegetation that forms fuels for such fires. The chart to my 
right here shows the forests in the interior West that we are 
talking about.
    The Forest Service has agreed to develop a cohesive 
strategy for reducing these fuels and formally communicate the 
strategy to the Congress together with estimates of the cost to 
implement it. According to the agency, it intends to develop a 
strategy by the end of this year.
    Developing and implementing a fuels-reduction strategy 
presents a difficult challenge to the Forest Service. We 
estimate that the cost to the agency to reduce fuels on the 39 
million acres of national forest land in the interior West 
could be as much as $725 million annually. That is more than 10 
times the current funding level.
    Such a strategy also transcends the boundaries of both the 
Forest Service's field and program structures. For example, the 
155 national forests are the agency's basic planning units, and 
each forest has considerable autonomy and discretion in 
interpreting and applying the agency's policies and directions. 
However, a strategy to reduce the risk of catastrophic fire in 
the region will need to transcend the boundaries of individual 
forests and involve most, if not all, of the 91 national 
forests located in the interior West.
    Similarly, a strategy to reduce fuels must include all 
three of the Forest Service's major organizational areas: the 
National Forest System, the State and Private Forestry 
programs, and the Research and Development arm of the agency. 
Within the National Forest System, such a strategy will need to 
draw funds and staff from many of the agency's nine resource-
specific programs, including those responsible for timber, 
wildlife and fish, recreation, and water and air quality.
    Forest Service field staff told us that it is often 
difficult to undertake needed fuel reduction efforts because 
the agency's areas and programs often have different goals, 
objectives, and funding sources, use different criteria to 
allocate funds to the field offices, and are not adequately 
coordinated to focus on overarching priorities such as fuel 
reduction.
    Confronted with other issues that transcend its field and 
program structures, the Forest Service has, on occasion, shown 
that it can develop and implement a cohesive strategy. For 
example, together with the Bureau of Land Management, the 
Forest Service developed and is implementing a regional plan-
management strategy in the Pacific Northwest called the 
Northwest Forest Plan. The plan provides management direction 
for 22.3 million acres of land managed by the two agencies, 
including 19 national forests and seven BLM districts in the 
range of the threatened Northern Spotted Owl.
    The agencies completed the plan expeditiously and at a 
relatively low cost compared with past national forest planning 
efforts. Other agency-wide issues, however, have languished for 
years as the Forest Service has undertaken study after study 
without ever developing a strategy, or has developed a strategy 
but left its implementation to the discretion of its 
independent and autonomous regional offices and forest with 
mixed results.
    At the Forest Service, a key element that separates the 
strategies that are effectively implemented from those that are 
not is whether the agency treats the issue as an agency-wide 
priority. For example, improving the condition of the agency's 
road system is clearly a high priority. To accomplish this, the 
Forest Service has identified the issue as a funding priority 
in its Fiscal Year 2000 budget justification, has requested an 
additional $22.6 million for maintaining and decommissioning 
roads during Fiscal Year 2000, has proposed a new appropriation 
for next fiscal year that includes monies for reconstruction 
and maintaining road, and has linked the issue to the goals and 
objectives in its strategic plan.
    In comparison, reducing the growing threat of catastrophic 
wildfires is not emphasized in the agency's strategic plan. In 
addition, only one of the Forest Service's three major 
organizational areas with responsibility for reducing fuels, 
the State and Private Forest Programs, has been tasked with 
developing such a strategy.
    In addition, even though the agency said that it would need 
an additional $37 million in Fiscal Year 2000 to increase the 
number of acres treated, the agency did not request any 
additional funds and with therefore will treat about 60,000 
fewer acres next year than it will treat this year.
    Madam Chairman, we recognize that the Forest Service has 
just begun to develop a fuel-reduction strategy and that 
priorities can and do change. If reducing the threat of 
catastrophic wildfires does become a priority, then we would 
expect it to be reflected in three documents that the agency 
will issue over the next eight months.
    First, we would expect it to appear in the agency's update 
of its strategic plan as an objective or outcome, or at least 
be linked to the plan's goals and objectives. Second, the 
strategy being developed would provide the agency's land 
managers with adequate direction for implementation and set 
standards for holding them accountable rather than merely 
providing broad general objectives and direction that cannot be 
quantified or measured.
    Finally, and probably most telling of all, if fuel 
reduction is accorded a high priority, then we would expect the 
agency to identify the strategy as a special project for 
funding in Fiscal Year 2001 and to withhold funds from the 
regions' and forests' budgets to develop and implement the 
strategy before funds are allocated to resource-specific 
programs.
    Madam Chairman, this concludes my statement, and we would 
be happy to answer any questions you may have.
    [The prepared statement of Mr. Barry Hill follows:]

Statement of Barry T. Hill, Associate Director, Energy, Resources, and 
Science Issues, Resources, Community, and Economic Development Division

    Madam Chairman and Members of the Subcommittee:
    We are here today to discuss the status of efforts by the 
Department of Agriculture's Forest Service to develop a 
cohesive strategy to reduce the threat of catastrophic 
wildfires on national forests in the interior West. Our 
comments are based primarily on the report and two testimonies 
that we prepared for this Subcommittee over the last year\1\ 
and the agency's actions to date in response to our findings 
and recommendation.
---------------------------------------------------------------------------
    \1\ Western National Forests: Catastrophic Wildfires Threaten 
Resources and Communities (GAO/T-RCED-98-273, Sept. 28, 1998); Western 
National Forests: Nearby Communities Are Increasingly Threatened by 
Catastrophic Wildfires (GAO/T-RCED-99-79, Feb. 9, 1999); and Western 
National Forests: A Cohesive Strategy Is Needed to Address Catastrophic 
Wildfire Threats (GAO/RCED-99-65, Apr. 2, 1999).
---------------------------------------------------------------------------
    In summary, the Forest Service has begun to develop a 
strategy to address the growing threat that catastrophic 
wildfires pose to forest resources and nearby communities. 
Developing and implementing such a strategy presents a 
difficult challenge to the agency because the wildfire issue 
transcends the boundaries of both its regions and forests and 
its resource-specific programs. Confronted with other issues 
that transcend these boundaries--such as protecting the habitat 
of the threatened northern spotted owl--the Forest Service has, 
on occasion, shown that it can develop and implement a cohesive 
strategy expeditiously and at a relatively low cost. At other 
times, it has begun to develop a strategy but has either 
studied and restudied the issue without ever doing so or 
developed a strategy but left its implementation to the 
discretion of its independent and highly autonomous field 
offices with mixed results. What separates the strategies that 
are effectively implemented from those that are not is whether 
the agency treats the issue as an agencywide priority. Those 
issues that are treated as priorities (1) benefit from a sense 
of urgency and strong leadership by top-level management in 
developing and implementing a strategy, (2) are addressed 
through a strategy that provides the agency's managers with 
adequate direction and sets standards for holding them 
accountable, and (3) are allocated the resources necessary to 
implement the strategy. To date, we have not seen the strong 
leadership or the marshalling of funds and resources within the 
agency that would indicate to us that the Forest Service feels 
a sense of urgency and assigns a high priority to reducing the 
threat of catastrophic wildfires.

The Forest Service Has Agreed to Develop a Cohesive Strategy to 
Reduce the Threat of Catastrophic Wildfires

    In April 1999, we reported that many national forests in 
the interior West, as well as nearby communities, are 
increasingly threatened by large, catastrophic wildfires caused 
by the excessive accumulation of vegetation that forms fuels 
for such fires. Fuels are accumulating, in large part, because 
for decades the agency has suppressed fire in forests where 
frequent, low-intensity fires historically removed such 
accumulations. We observed that the actions taken by the agency 
to date to deal with this problem may be too little, too late. 
Moreover, the Forest Service faces several barriers, including 
(1) difficulties in reconciling different fuel reduction 
methods with other stewardship objectives, such as clean air 
and clean water; (2) programmatic incentives that tend to focus 
efforts on areas that may not present the highest fire hazards; 
(3) statutorily defined contracting procedures that impede 
efforts to reduce fuels; and (4) the high costs associated with 
implementing the different fuel reduction methods. We also 
found that the agency lacks the data required to overcome these 
barriers and to establish meaningful goals and measures for 
fuel reduction.
    The Forest Service agreed with our findings and 
recommendation that it develop a cohesive strategy for 
addressing these barriers and reducing fuels and formally 
communicate the strategy to the Congress, together with 
estimates of the costs to implement it. According to the Forest 
Service, it intends to develop a strategy by December 31, 1999.
Developing a Strategy Presents a Difficult Challenge to the 
Forest Service

    Developing and implementing a strategy to address the 
growing threat of catastrophic wildfires in the interior West 
presents a difficult challenge to the Forest Service. We 
estimate that the cost to the agency to reduce fuels on the 39 
million acres of national forestland in the interior West that 
are at high risk could be as much as $725 million annually, or 
more than 10 times the current level of funding for reducing 
fuels.
    Such a strategy also transcends the boundaries of both the 
Forest Service's field and program structures. For example, the 
155 national forests are the agency's basic planning units, and 
each forest has considerable autonomy and discretion in 
interpreting and applying the agency's policies and directions. 
However, a strategy to reduce the risk of catastrophic fire in 
the region will need to transcend the boundaries of individual 
forests and involve most, if not all, of the 91 national 
forests located in the interior West.
    Similarly, a strategy to reduce fuels must include all 
three of the Forest Service's major organizational areas--the 
National Forest System, which includes the national forests; 
State and Private Forestry programs, which include those for 
hazardous fuel reduction; and the Research and Development arm 
of the agency, which conducts fire-related research. Within the 
National Forest System, such a strategy will need to draw funds 
and staff from many of the agency's nine resource-specific 
programs, including those responsible for timber, wildlife and 
fish, recreation, and water and air quality. These programs 
often have separate staffs in the agency's the agencies' 
headquarters and field offices. Forest Service field staff told 
us that it is often difficult to undertake needed fuel 
reduction efforts because the agency's areas and programs often 
have different goals, objectives, and funding sources; use 
different criteria to allocate funds to the field offices; and 
are not adequately coordinated to focus on overarching 
priorities, such as fuel reduction.

The Forest Service Has Adequately Addressed Some Issues That 
Transcend Its Boundaries, but Not Others

    Confronted with other issues that transcend its field and 
program structures, the Forest Service has, on occasion, shown 
that it can develop and implement a cohesive strategy. For 
example, together with the Department of the Interior's Bureau 
of Land Management (BLM), the Forest Service developed and is 
implementing a regional land management strategy in the Pacific 
Northwest called the Northwest Forest Plan. The plan provides 
management direction for 22.3 million acres of land managed by 
the two agencies--including 19 national forests and 7 BLM 
districts--in the range of the threatened northern spotted 
owl.\2\ The agencies completed the plan expeditiously and at a 
relatively low cost compared with past national forest planning 
efforts. The plan not only resulted in the Federal courts' 
lifting the injunctions that had brought timber sales on 
Federal lands in the Pacific Northwest to a virtual halt, but 
also provided guidance on protecting the environment across the 
ecosystem.
---------------------------------------------------------------------------
    \2\ Ecosystem Planning: Northwest Forest and Interior Columbia 
River Basin Plans Demonstrate improvements in Land-Use Planning.
---------------------------------------------------------------------------
    Key factors that contributed to the timely and cost-
effective development of the Northwest Forest Plan included the 
(1) sense of urgency created by the court injunctions and (2) 
strong leadership displayed by top-level officials in 
developing the plan. Moreover, the plan provides the agencies' 
land managers with adequate direction for implementation and 
sets standards for holding them accountable. In addition, the 
plan has been identified as a special project for funding in 
the agency's fiscal year budget justifications, and funds are 
withheld from the regions' and forests' budgets to develop and 
implement the plan before they are allocated to resource-
specific programs.
    Other agencywide issues, however, have languished for years 
as the Forest Service has undertaken study after study without 
ever developing a strategy or has developed a strategy but left 
its implementation to the discretion of its independent and 
autonomous regional offices and forests with mixed results. In 
fiscal year 1991, for example, the Congress asked the Forest 
Service to develop a multiyear strategy to reduce the 
escalating costs of its timber program by not less than 5 
percent per year. The agency responded by undertaking a cost-
reduction study and issuing a report in April 1993. However, 
the Forest Service left the implementation of the field-level 
actions to the discretion of each of its nine regional offices, 
and while some regions rapidly pursued the goal of becoming 
cost-efficient, others did not. In April 1997, the agency was 
preparing to undertake the third major examination of its 
timber program in the last 4 years.
    Similarly, the House Committee on the Budget has an ongoing 
interest in the Forest Service's efforts to be more cost-
effective and businesslike in its operations. In October 1998, 
the agency agreed to revise the strategic plan that it has 
developed to comply with the requirements of the Government 
Performance and Results Act of 1993 (the Results Act) to 
include goals and performance measures for obtaining fair 
market value for goods, recovering costs for services, and 
containing expenses. However, to date the agency has not done 
so.
Reducing the Threat of Catastrophic Wildfires Does Not Appear 
to Be a High Priority for the Forest Service

    At the Forest Service, a key factor that separates the 
strategies that are effectively implemented from those that are 
not is whether the agency treats the issue as an agencywide 
priority. For example, improving the condition of the road 
system in the national forests is clearly a high priority 
within the agency and is one of only four areas emphasized in 
the Forest Service's natural resource agenda. This agenda sets 
the agency's priorities and gives strategic focus to its 
programs. Under the agenda, and at the direction of the Chief 
of the Forest Service, the agency is developing a long-term 
forest road policy that will guide (1) the building of new 
roads; (2) the elimination of old, unneeded ones; (3) the 
upgrade and maintenance of roads that are important to public 
access; and (4) the development of new and dependable funding 
for road management. To accomplish these objectives, the Forest 
Service has (1) identified the issue as a funding priority in 
its fiscal year 2000 budget justification, (2) requested an 
additional $22.6 million for maintaining and decommissioning 
roads during fiscal year 2000, (3) proposed a new appropriation 
for fiscal year 2000 that includes moneys for reconstructing 
and maintaining roads, and (4) linked the issue to the goals 
and objectives in its strategic plan.
    In comparison, reducing the growing threat of catastrophic 
wildfires is not emphasized in the agency's natural resource 
agenda or in its strategic plan, and top-level management has 
not been involved in developing a fuel reduction strategy. In 
addition, only one of the Forest Service's three major 
organizational areas with responsibility for reducing fuels--
State and Private Forestry programs--has been tasked with 
developing such a strategy. A team from various disciplines 
within the agency is to advise staff from State and Private 
Forestry. The strategy is to be developed by the end of the 
year, but the team has not yet been formed and a leader has not 
yet been appointed. In addition, even though the Forest Service 
said that it would need an additional $37 million in fiscal 
year 2000 to increase the number of acres treated, the agency 
did not request any additional funds and will therefore treat 
about 60,000 fewer acres next year than it will treat this 
year.
    Madam Chairman, we recognize that the Forest Service has 
just begun to develop a fuel reduction strategy and that 
priorities can, and do, change. If reducing the threat of 
catastrophic wildfires does become a priority, then we would 
expect it to be reflected in three documents that the agency 
will issue over the next 8 months. The first will be the Forest 
Service's updated strategic plan that is scheduled for release 
this fall. If fuel reduction has become a high priority for the 
agency, then we would expect it to appear in the strategic plan 
as an objective or outcome, or at least to be linked to the 
plan's goals and objectives. The second document will be the 
strategy itself. A good indicator of the priority given to fuel 
reduction will be whether the strategy provides the agency's 
land managers with adequate direction for implementation and 
sets standards for holding them accountable or whether it 
merely provides broad, general objectives and direction that 
cannot be quantified or measured. Finally, and probably most 
telling of all, will be the Forest Service's fiscal year 2001 
budget request. If fuel reduction is accorded a high priority, 
then we would expect the agency to identify the strategy as a 
special project for funding and to withhold funds from the 
regions' and forests' budgets to develop and implement the 
strategy before funds are allocated to resource-specific 
programs.
    Madam Chairman, this concludes my formal statement. If you 
or the other Members of the Subcommittee have any questions, we 
will be pleased to answer them.

Contact and Acknowledgment

    For future contacts regarding this testimony, please 
contact Barry T. Hill at (202) 512-8021. Individuals making key 
contributions to this testimony included Charles S. Cotton, 
Chester M. Joy, and Michael J. Daulton.

------------
    (GAO/RCED-99-64, May 26, 1999).

    Mrs. Chenoweth. Thank you very much, Mr. Hill.
    The Chair now recognizes Ms. McDougle for her testimony.

 STATEMENT OF JANICE McDOUGLE, DEPUTY CHIEF, STATE AND PRIVATE 
 FORESTRY, U.S. FOREST SERVICE, AND DENNY TRUESDALE, ASSISTANT 
             DIRECTOR, FIRE AND AVIATION MANAGEMENT

    Ms. McDougle. Thank you very much, Madam Chairman and 
members of the Subcommittee. We appreciate the opportunity to 
be here today. I would like to briefly summarize my testimony 
and submit the full testimony for the record.
    Mrs. Chenoweth. Without objection.
    Ms. McDougle. But let me say at the outset, we agree with 
the assessment of GAO. The Forest Service is committed to the 
health of ecosystems we manage, and the health and safety of 
our wild lands and rural neighbors. And I would also like to 
say that we are actively engaged in developing a strategy to 
address this complex issue.
    The General Accounting Office accurately reports that many 
forest ecosystems have changed structurally over the last 100 
years to a point where they are now at high risk of 
catastrophic fire. The Federal Fire Suppression Policy for the 
last 100 years has had an unintended consequence. In addition 
to protecting forests from fires, it has profoundly influenced 
the composition, structure, and function of ecosystems, where 
frequent and low-intensity fires historically occurred.
    Over time, other values have taken on added importance. 
Americans today want to protect resources and habitat for 
federally listed threatened and endangered species, protect air 
quality, especially near urbanized areas of the country, and 
allocate land to wilderness and other special designations.
    These values provide challenges to putting fire back into 
the ecosystem because most methods of reducing fuels are 
difficult to reconcile with them. In addition to changes in 
forest conditions, an increasing number of people are moving 
from urban areas to rural areas near public lands, which has 
resulted in more homes and businesses near national forests. 
This mix of people, property, and forests is commonly called 
Wildland-Urban Interface. Structures in these areas are 
extremely vulnerable should wildfire occur. Increased 
population in the rural and forest environment coupled with the 
increased hazards from fuels accumulation has increased the 
risk of fire threat to life and property.
    The Forest Service anticipates completing a cohesive 
strategy by the end of 1999. The fire management staff is 
leading an interdisciplinary team composed of specialists in 
fire, forest health, forest management, watershed, fire 
research, and wildlife and fish management to develop this 
strategy. The strategy will include the use of many management 
tools available to us, timber sales where appropriate, banning 
of timber fans, watershed improvement projects, wildlife 
habitat treatment, as well as prescribed fire and mechanical 
treatment.
    In terms of collecting better data and developing 
measurable goals, I am happy to report great progress on our 
risk-mapping effort. I testified before this Subcommittee in 
the fall of 1998. The Forest Service had established an 
interdisciplinary team to coordinate our efforts to define and 
map risks so that we will have better information to prioritize 
our fuel-reduction work.
    The Forest Service currently developing a strategic plan, 
annual performance plan, as directed by the Government 
Performance and Results Act. We are also in the process of 
developing both strategic plan objectives as well as annual 
performance plan indicators of fuel treatment.
    Areas in need of high-risk fuel reduction do not always 
coincide with areas of highest priority for forest health, 
watershed restoration, and protection or timber production. It 
is not always possible for the two to combine into a cohesive 
program that provides the optimum fuel treatment.
    The GAO accurately reports that the high costs of treating 
fuels is a significant barrier, and we are confident that by 
identifying prioritized strategic treatment areas, we may 
significantly reduce the total number of acres that the Forest 
Service will need to treat.
    In closing, Madam Chairman, clearly, we face great 
challenges in improving forest health and reducing high fire 
risk. However, the Forest Service in 1998 treated nearly 1.5 
million acres for fuels reduction. By the year 2005, the goal 
is to treat at least 3 million acres per year.
    This concludes my remarks, and I welcome any questions that 
you and the members of the Subcommittee may have.
    [The prepared statement of Ms. McDougle follows:]

Statement of Janice McDougle, Deputy Chief, State and Private Forestry, 
        United States Department of Agriculture, Forest Service

    MADAM CHAIRMAN AND MEMBERS OF THE COMMITTEE:
    Thank you for the opportunity to be here. I am Janice 
McDougle, Deputy Chief for State and Private Forestry, with 
responsibility for the fire management programs of the Forest 
Service. Accompanying me is Denny Truesdale, Assistant Director 
for the Fire and Aviation Management staff.
    I would like to cover the following key points today:

        (1) Many forest ecosystems have changed structurally over the 
        last 100 years to a point where they are now at high risk to 
        catastrophic wildfire;
        (2) Increased population in the rural and forest environment 
        has increased the risk of fire threat to life and property;
        (3) The recommendations identified in the final General 
        Accounting Office report (GAO Report RCED-99-65), and;
        (4) The Forest Service response to those recommendations and 
        challenges.

Forest Ecosystems and Risk of Catastrophic Fire

    The General Accounting Office (GAO) report systematically and 
accurately lays out the seriousness and magnitude of the problem that 
now exists with the threat of catastrophic wildfires to forest 
resources and communities. We agree with the assessment made in the 
report, and have discussed this issue on several occasions in testimony 
before this Subcommittee. Briefly, I can outline the nature of the 
problem as follows.
    We estimate that approximately 39 million acres of National Forest 
System lands, primarily in the inland West and the Atlantic coastal 
states, are at high risk from damaging, high-intensity, wildland fire. 
Many of these stands are dense and over-crowded with high mortality 
rates due to bark beetle and other insect outbreaks. For instance, in 
eastern Oregon and Washington, forest inventories show that mortality 
has been above average over the past decade on all forest ownerships.
    The success of fire suppression efforts for the last 100 years has 
also had a profound influence on the composition and structure of 
natural fuel conditions, and the function of those ecosystems where 
frequent and low-intensity fires historically occurred. Fire is part of 
a natural, ecological cycle and, over a long enough period, all forests 
will eventually burn. Fire suppression has increased the fuel load and 
the risk of higher intensity fires. Unless we address current forest 
conditions, the risk and severity of high intensity fires will continue 
to grow, threatening the health of our watersheds and larger 
ecosystems.
    Over time, other values have taken on added importance. Americans 
have wanted to protect resources and habitat for federally-listed 
threatened and endangered species, protect air quality, especially near 
urbanized areas of the country, and allocate lands to wilderness and 
other special designations. These are values that the agency agrees 
with, but they also provide more challenges in putting fire back into 
ecosystems. This results in the need to balance putting fire into the 
ecosystem with these other values. Therefore, as we acknowledged 
before, treating the entire 39 million acres is not possible for a 
multitude of reasons. However, we are engaged in prioritizing areas 
needing treatment, and those areas literally should start at home. 
Additionally, fire is a necessary tool for managing and improving 
habitat for many wildlife species, including critical habitat for some 
threatened or endangered species.

The Wildland Urban Interface

    In addition to changes in forest conditions, the increasing number 
of people moving from urban areas to rural areas near public lands has 
resulted in more homes and other structures being built in wildland 
environments near national forests. We commonly call these wildland 
urban interface areas. Because of their location, these structures are 
extremely vulnerable to fire should a wildland fire occur. This trend, 
coupled with the increased hazard from fuels accumulation discussed 
above, is resulting in a volatile situation that must be addressed.

GAO Report Recommendations

    GAO recommends that the agency reduce and maintain accumulated 
fuels on national forests of the interior West to acceptable levels. 
They recommend a formal report to Congress on a cohesive strategy, 
which would include the following:

    (1) Specific steps for: (a) acquiring the data needed to establish 
meaningful performance measures and goals for reducing fuels; (b) 
identifying ways to better reconcile different fuel reduction 
approaches with other stewardship objectives, and; (c) identifying 
changes in incentives and statutorily defined contracting procedures 
that would better facilitate the accomplishment of fuel reduction 
goals;
    (2) A schedule indicating dates for completing each of these steps, 
and;
    (3) Estimates of the potential and likely overall and annual costs 
of accomplishing this strategy based on different options identified in 
the strategy as being available to do so.

Forest Service Response and Plan of Action

    As noted in the GAO report, the Forest Service began to address the 
issue of increased fire risk in the early 1990's. In 1998, the Forest 
Service treated nearly 1.5 million acres for fuels reduction. By the 
year 2005, the goal is to treat at least 3.0 million acres per year in 
order to address the most critical high fire risk areas.
    The Forest Service anticipates completing a cohesive strategy by 
the end of 1999. An existing forest health interdisciplinary team 
representing programs in fire, forest health, forest management, 
watershed, fire research and development, and wildlife and fish 
management, with fire management taking the lead, will work together to 
develop the strategy. We will use the strategy to guide the 
implementation of the hazardous fuels reduction program into the 
future. The strategy will be updated annually to account for 
treatments, wildfire occurrence, insect and disease outbreaks, and 
inclusion of new scientific information developed under the Joint Fire 
Sciences Plan and other research initiatives. We will address these 
problems with an aggressive program to use fire in a more natural 
ecological role, integrating our many related activities into a 
cohesive strategy. The full range of tools will be brought to bear on 
the problem: timber sales, where appropriate; thinning; watershed 
improvement projects; wildlife habitat treatments; as well as a full 
range of mechanical and prescribed fire treatments, to name just a few.

Data Needs and Performance Goals

    We have an ongoing effort to develop a database that will help 
identify and define risks to forest ecosystems. A team is coordinating 
our efforts to define and map risks and develop procedures for using 
risk information in decision making. The insects and disease risk map 
is completed. The fire and wildland urban interface risk maps will be 
completed by February of the year 2000, if not sooner.
    There is a strong partnership with research to define and map fire 
risks. Last year, funds were allocated through the Joint Fire Sciences 
Program to expand the scope of the project to include additional risk 
factors such as fire occurrence, expected fire danger, and the wildland 
urban interface. Prototype maps were delivered in February, 1999, and 
we are currently validating them with our regional experts, cooperating 
Federal agencies, and state partners.
    By developing sets of maps and databases to display areas at 
highest risk in critical ecosystems, and then combining or overlaying 
that information for broadscale assessments, we will assure that areas 
of high risk will receive priority for planning, funding, and 
implementation at the regional level. This analysis will provide the 
basis for programmatic assessments that focuses national priorities 
balanced with regional and local capabilities and the needs of local 
communities.
    The Forest Service is also concurrently developing a strategic plan 
and annual performance plan as directed by the Government Performance 
and Results Act. We are in the process of developing both strategic 
plan objectives, as well as annual performance plan indicators for 
fuels treatment. While the strategic planning and annual performance 
planning is not yet finalized, we will use it when completed along with 
the risk mapping effort so that accomplishments can be meaningfully 
tracked. This will improve upon our current reporting systems.

Reconciling Fuels Reduction With Other Stewardship Objectives

    The hazardous fuel reduction program has always been approached in 
an interdisciplinary fashion. Even though the primary purpose is to 
reduce the threat of catastrophic fire and damage to life, property, 
and resources, in almost all situations, the treatments produce 
benefits for other resources.
    For example, a very successful effort is the wilderness fire 
program. Both the Wilderness Act and agency policy recognizes the role 
that fire plays in maintaining and restoring natural environments such 
as wilderness areas. In 1995 the Forest Service developed a guide that 
provides a highly coordinated approach to re-establish the role of fire 
in the wilderness, meeting the intent of the Wilderness Act, and at the 
same time providing a much higher degree of protection from wildfires 
that may escape from a wilderness and threaten public lands or private 
property.
    Challenges will remain in integrating programs. While prescribed 
fire may be one of the most cost-effective tools in some areas, 
protecting air quality is also a priority for states, therefore full 
application of this program may not be possible. Adequately protecting 
soil and water resources may also limit the amount and timing of 
mechanical treatments. Protecting habitat for threatened or endangered 
species may also limit the tools and extent of application of 
treatments, which will result in fewer acres treated. All of these 
factors point to the need to take a strategic approach toward ensuring 
the treated acres reflect the most efficient and effective use of 
limited resources. This is not impossible, as evidenced by a recent 
analysis on the Idaho Panhandle National Forest, where a 400,000 acre 
area was studied for treatment for forest health and fuels purposes. 
Through a focused analysis and prioritization process, a 25,000 acre 
project was developed based on site-specific information with full 
public involvement.

Identifying Changes in Incentives

    Areas in need of high risk fuel reduction do not always coincide 
with the areas of highest priority for forest health, watershed 
restoration and protection, or timber production. In fact, a high 
proportion of the suitable timber base is outside of urban interface, 
wilderness areas, and other high priority fuel reduction areas. 
Producing timber and reducing fire hazards are both legitimate and 
critical resource objectives, but often with different desired 
outcomes. It is not always possible for the two to combine into a 
cohesive program that provides the optimum fuel treatment.
    A number of options are available to help address this situation. 
Pursuant to section 323 of the Department of the Interior and Related 
Agencies Appropriations Act, 1999, commonly known as the Wyden 
Amendment, the Forest Service is authorized to integrate activities 
through cooperative agreements with private landowners. Using this new 
authority, several units are planning and implementing projects in 
1999. The use will expand as more projects are completed successfully. 
The Wyden Amendment is seen as a useful tool to treat watersheds 
effectively.
    The proposed fiscal year 2000 Forest Ecosystem Restoration and 
Improvement line item in the Forest Service budget will enable us to 
focus treatments, such as noncommercial thinning, on lands where 
noncommercial treatments are required to restore or maintain watersheds 
and forest health. This will give managers flexibility in planning and 
integrating projects that are outside of the timber production areas.
    The wildland/urban interface assistance component within the state 
fire assistance program, helps communities at risk of wildfire by 
providing special competitive grants for planning and mitigation. This 
approach can reduce insurance premiums for homeowners, prevent wildland 
fires from destroying homes, and reduce damage to Federal, state, and 
private forest resources.
    Not all funding in fuels management can or should be directed only 
at high fire risk areas. We must maintain areas that are already in a 
healthy situation--for example much of the South. Many areas are 
treated with prescribed fire on a regular cycle. These areas are a high 
priority for fuels funding in order to maintain the current health of 
the stands. These stands provide the least risk and the least cost for 
the total management options for the sites. They also result in the 
lowest fire suppression cost with the highest rates of suppression 
success. I invite you to visit forests such as the Francis Marion which 
have beautiful stands of long leaf pine that are burned on a 3 to 5 
year cycle to maintain the excellent habitat for the Red Cockaded 
woodpecker.

Identifying Changes in Contracting Authorities

    We are currently testing a broad range of new stewardship project 
processes and procedures pursuant to section 347 of the Department of 
the Interior and Related Agencies Appropriations Act, 1999. This 
provision authorized the Forest Service to enter into pilot contracts 
using special authorities to improve efficiency in achieving national 
forest land management goals while helping meet rural community needs. 
Some of the authorities expand current contracting mechanisms to allow 
removal of low value material to reduce fire hazard and provide 
products to community industries. Examples include: exchanging forest 
products for services, retaining receipts from product sales for 
related forest health activities, increased flexibility in the methods 
for appraising product value, and new ways of designating products to 
be sold. We will report to Congress annually during the testing period.
    Our efforts to improve utilization of small diameter materials to 
reduce fire risks extends beyond the pilot projects authorized in the 
appropriations act. A team of representatives from fire, forest 
management, research (through the Forest Products Lab), and cooperative 
forestry program areas are working to expand utilization of small woody 
material on both public lands and private lands. Throughout much of the 
West tightly spaced small trees contribute to fire risks but this 
material often has little economic value. Improved technology, 
harvesting techniques, and market development are part of the small 
diameter utilization effort.

Schedule for Completion

    The schedule for completion of each of these steps identified for 
the cohesive strategy will be developed. As it is early in the process, 
we have not yet developed a schedule.

Costs

    The GAO report identified the high cost of treating fuels as a 
significant barrier. Current and projected budgets will not allow for 
treatment of all areas that have been identified as high fuel hazards. 
However, prioritization and strategic locations of treatments may 
significantly reduce the total number of acres that the Forest Service 
would need to treat. The challenge will be to use fuels treatment 
funding, as well as funding in wildlife, forest management, and 
watershed, to treat high fuel risk areas effectively. It is not 
possible at this time to know if there will be sufficient funds to 
accomplish this, but this will be thoroughly explored in the drafting 
of the cohesive strategy.

Summary

    Clearly, we face great challenges in improving forest health and 
reducing high fire risk. We are moving ahead quickly to develop a 
cohesive strategy to address this issue and anticipate delivering a 
plan by December of 1999.
    In closing, we do not agree that this is ``too little, too late,'' 
as stated in the GAO report. We will develop a comprehensive, cohesive 
strategy that will address this important issue, and through innovative 
watershed scale approaches and the full use of all the tools available 
for this work, we believe we will achieve significant accomplishments 
in treating critical high risk areas. This problem did not develop 
overnight, and it will not be solved overnight. In fact, the next 
century's challenge is to restore these ecosystems to resilient ones 
where fire will be one of the tools used.
    Thank you Madam Chairman, and I welcome any questions the 
Subcommittee may have.

    Mrs. Chenoweth. Thank you, Ms. McDougle. I have a question 
that I would like to direct to you or to Mr. Truesdale.
    As you may remember, I was very upset last year when the 
Forest Service expanded and eliminated the very elite Boise Hot 
Shots firefighting crew. I brought this matter before this 
Subcommittee, and the Forest Service subsequently reinstated 
the Boise Hot Shots, much to your credit.
    Yesterday, I learned, fortunately, that this final chapter 
involving charges against Kole Berriochoa of Boise, who was the 
leader of the Boise Hot Shots, were finally dropped. He was the 
supervisor of the Boise Hot Shots crew. And they were dropped 
after 16 months of administrative leave and countless sleepless 
nights as he was waiting for a thoughtless bureaucracy to 
decide his fate.
    But I would like to know what your thoughts are on this, 
and I would like some assurance from you, Ms. McDougle, and 
from you, Mr. Truesdale, that the Forest Service will deal with 
any future personnel problems in a manner more respective of 
justice and with more care to the people involved, and to the 
communities that rely on these essential firefighting crews, 
such as we were just involved in last weekend in our hearings 
in Florida in which the Boise firefighting crews were involved.
    I would like a commitment from you, today, that Kole 
Berriochoa will be reinstated and that you will do whatever you 
can to prevent anything like this from happening in the future.
    Ms. McDougle. Madam Chairman, we were just made aware of 
this about two minutes before this hearing by your staff. We 
had not been informed that this had happened at all.
    Mrs. Chenoweth. I take it that you mean ``this'' being that 
the charges had been dropped?
    Ms. McDougle. Yes.
    Mrs. Chenoweth. Knowing that the charges have been dropped, 
I would like to know that Kole Berriochoa, who is such a 
highly-trained firefighter and a man I can attest to with great 
personal integrity--I think that the Boise Hot Shots need his 
leadership again. And certainly the Forest Service has relied 
on this kind of firefighting crew. So I would like to know that 
they will be made whole again with his joining the Hot Shots 
again.
    Ms. McDougle. Madam Chairman, I am a little reluctant to do 
that without consultation with the Regional Forester. We have 
not had an opportunity to visit about that. But if he is okay, 
I am okay.
    Mrs. Chenoweth. All right. I appreciate the fact, Ms. 
McDougle, that you will pursue that.
    And, Mr. Truesdale, would you add any thing to the record 
that you would like with regards to this matter?
    Mr. Truesdale. Well, I agree that the Hot Shots crew 
program is one of our significant part of our wildland 
firefighting effort. We have crews all over the country similar 
to the Boise crew, and they perform admirably throughout. We 
have reinstated the crew. The crew is up and functioning. I 
know that the crews efforts for the Boise National Forest and 
for the area are very important, and we intend to maintain that 
program with the highest level of integrity and commitment that 
we can.
    Yes, we will maintain those crews, and I assure you the 
commitment you had previously, that the Boise crew would be 
there, will be honored.
    Mrs. Chenoweth. And it is my hope that you will lend your 
support to Ms. McDougle on the reinstatement of Kole 
Berriochoa.
    Mr. Truesdale. Yes. We will look into that and get back 
with you with that.
    Mrs. Chenoweth. Can I expect a report from you within the 
next 24 hours?
    Mr. Truesdale. Yes. We can--a personnel matter is something 
that I am not equipped at all to give you promises one way or 
the other, but within 24 hours we will talk to your staff about 
what I have found out and what status there is. Yes, we will do 
that.
    Mrs. Chenoweth. That is good, Mr. Truesdale. I appreciate 
your keeping us posted on this very important issue to us in 
Idaho.
    Bad things happen to good people, and bad things happen to 
well-intentioned programs. And this is our chance to resolve 
this once and for all. I thank you very much.
    I also want to say that I have been reading with interest 
Chief Dombeck's recent comments that the new top management 
priority for the Forest Service is clean water. I guess this 
shouldn't be much of a surprise, considering that the Chief has 
a fisheries and not a forestry background.
    But I also notice that the number two position in the 
agency, that of the Associate Chief, was recently filled by a 
fisheries scientist from the National Marine Fisheries Service. 
The agency has also in recent years bought out or riffed more 
foresters than any other discipline in the Forest Service.
    I am just wondering whether the name ``Forest Service'' is 
appropriate any more. Maybe we should just call the Forest 
Service something else, such as the Park Service, and move it 
out of the Department of Agriculture and into the Department of 
Interior. I would like for you to give me some reasons why we 
shouldn't move the agency into the Department of Interior since 
we seem to have changed our focus.
    Ms. McDougle. Madam Chairman, you put me in an awkward 
position because I am not in the room when those decisions are 
made. I don't have the benefit of the thinking that goes into 
them. So, you know, if you want a reaction, I am not the one.
    Mrs. Chenoweth. Well, Ms. McDougle, I will be directing the 
question, then, to the Chief.
    Ms. McDougle. Thank you.
    Mrs. Chenoweth. Thank you very much. And I will be 
returning with questions for Mr. Hill. Right now, I would like 
to recognize Mr. Adam Smith for questions.
    Mr. Smith. Thank you.
    Ms. McDougle, I wonder if you would help us out right at 
the start. When you talk about treating forest areas for fuels 
reduction purposes, what does that mean? I mean, what are the 
three or four--is there a list of treatments, there are four or 
five things. Mr. Hill, if you have an answer to this, you can 
throw that out there, too.
    But if you could like chart for us: You look at, you see 
the problem, okay, this needs to be treated. You know, what are 
the tools that you have to select from at that point?
    Ms. McDougle. I am going to let Mr. Truesdale help here 
because he has done it for many years, but, you know, you have 
prescribed burning, you have mechanical treatments, you have 
timber harvest--there are a myriad of ways to treat an area.
    Mr. Smith. Yes, the mechanical treatments I could use 
further explanation on. Mr. Truesdale?
    Mr. Truesdale. When I think of treatment, it is usually--
well, it is either one of two things. One is the reduction in 
the amount of biomass from the material that is out there, or 
it is a rearrangement of that material. And we tend to 
generically break it down into two ways.
    One is prescribed fire, which is fairly easy to understand, 
and then mechanical treatment lumps a whole range of things. It 
has been such things as tractor piling, where you take 
bulldozers or some mechanical piece of equipment, and pile 
things up to knock it down; it can be the timber sale 
treatments, where you actually remove commercial or non-
commercial material that can reduce the structure of the 
stand--a whole range of things, hand-piling, just having people 
out there cutting brush with chain saws and piling it up. That 
is very effective around the interface, for example, where 
other types of treatment would be unacceptable aesthetically. 
But it is a whole range of activities.
    Mr. Smith. To what extent is commercial logging part of 
that? And I guess I ask that question because to a novice--I 
don't know a great deal about forests, I just recently have 
been put on the Committee--it seems to me like if you are 
talking about underbrush, right off the top it occurs to me 
that, how would much of that be commercially viable? How would 
that be something that would even be of help to the logging 
industry, if you are just talking about clearing stuff out that 
could be a fire hazard?
    Mr. Truesdale. Logging in the sense that you are taking 
great big trees out that can be turned into lumber, it may or 
may not be applicable because in many cases in fire-adapted 
ecosystems, such as Ponderosa Pine, those large Ponderosa Pine 
are resistant to fire and is how you would structure the stand 
that you would like to have left.
    But there is a whole range of things from small materials, 
small-diameter material, from just chipping and biomass, using 
the biomass as just brush. There may not be a market for the 
undergrowth there, but it can be a wide range of things.
    In some ways, timber sale harvest as was practiced 40 or 50 
years ago may have caused some problems by removing the big, 
large, easy-to-get trees and leaving the less desirable 
material. I think we have learned a lot in the last 50 years, 
and commercial timber sales can be a very important part of 
that.
    It is not the full answer, though. There is so much stuff 
out there that right now doesn't all have commercial value.
    Mr. Smith. Mr. Hill, did you have to add on that or----
    Mr. Barry Hill. No. I think the point that Mr. Truesdale 
made at the end is a significant one. Much of what needs to be 
removed does not have commercial value, and right now there are 
really no incentives in the contracting procedures that the 
Forest Service has to remove those fuels.
    Mr. Smith. I get the impression--and again I come at this 
with just the old a little knowledge is a dangerous thing--I 
get the impression that, you know, some of the old battles 
between environmentalists and the logging companies are sort of 
getting in the way of, you know, moving forward with this 
policy.
    I guess the first thing is, am I right or wrong about that? 
To what extent does that, you know, people concerned about too 
much salvage crossing over the line into commercial logging, or 
on the other hand, commercial loggers trying to use the excuse 
of salvage logging to grab more timber--to what extent has that 
hampered your ability to deal with the fuels problem? And what 
could we do to get past that?
    Ms. McDougle. You are right; that is a challenge of ours 
because of the trust factor.
    Mr. Smith. The lack of trust factor, I think.
    Ms. McDougle. Yes, but we think that the risk maps that are 
being developed and refined and science-driven will help us 
to--with the credibility issue in terms of how we got to where 
we are, what the priorities are, where, and then let the field-
driven process, including public participation, bear it out.
    But we think--and that is another thing that I wanted to 
say about these maps; we want to get it right. And we want to 
make them credible, and then we want to use them.
    Mr. Smith. Okay. I wanted to ask about the science of it. 
And this is a point I kind of awkwardly made earlier. I have 
never encountered an issue there is such diametrically 
opposition to the basic facts. It is almost to me like I have 
got one side saying 2 plus 2 is 3, and the other side saying 2 
plus 2 is 5. And they are sticking to their guns.
    There is wide conflict on this science. I mean, one 
person's science is somebody else's hack research, and are we 
making any progress in getting to the point where we can at 
least agree on the science? I mean, the nature of science is 
that it shouldn't be subjective; it shouldn't matter what your 
perspective is, how clear the science is. But you have to laugh 
when I make that statement because everybody who works on these 
issues knows that the determining factor on what the science 
says is almost always where you are coming from.
    Is there any way to get around that? Any way to have, like, 
if there is such a thing in this area, an impartial sign to 
say, this is the science? And are we making any progress on 
that?
    Ms. McDougle. Yes. We are, in addition to the science, we 
are having the information that they develop peer-reviewed and 
field validated. And, hence, that is what has taken us a little 
longer. So we can make them as credible as possible.
    But keep in mind, no one has ever done this before. And so 
this is new. But I don't think that is a real issue, at least 
with what we are trying to do.
    Mr. Joy. Mr. Smith, I would just like to point out about 
whether or not there have been any changes. During the course 
of our review, I think we did notice some changes or progress. 
And that was, in an area of the country where there has been a 
lot of controversy and there has been the bitter division in 
which many environmentalists would essentially cut nothing, the 
Forest Service has been relying on the Department of Interior 
on some advice in designing some fuels reduction which 
suggested about 85 to 90 percent of the trees in a given area 
should be removed. Now, I want to emphasize, that may sound 
like a lot, but when 95 percent of the trees are as big as my 
finger, it doesn't make much difference.
    In any event, the point is that there had been absolute 
opposition before. More recently, the group that had been 
opposed to that has done some of their own tests, analyses, et 
cetera, and they decided that about 50 or 60 percent would be 
all right.
    Now, obviously, there is still a lot of difference between 
the two. And the group is also concerned that even if there 
is--if they do come to an agreement on the numbers--that, 
nonetheless, nothing should be sold because that would create 
an incentive.
    So the point is, if you can agree on a number and it is 
within these bounds, it shouldn't matter as long as there is a 
commitment not to go cross that line. But nonetheless, that 
does reflect some progress. The narrowing of the difference 
between the 50 and the 90 or whatever, is, I think, what we 
also see as crucial to be done. And that is something that the 
Forest Service's efforts really have to be directed at.
    Mr. Smith. Well, I would agree. I think few things are more 
important than solving this problem and making exactly the type 
of progress that you just described, and making more of it.
    Thank you very much.
    Mrs. Chenoweth. Thank you, Mr. Smith. The Chair recognizes 
Mr. Duncan for questions.
    Mr. Duncan. Thank you, Madam Chairman.
    Ms. McDougle, at a hearing earlier this year, we were told 
that there is roughly 23 billion board feet of growth in the 
national forests each year or now, and that we are cutting 
approximately 3 billion board feet. Are those figures roughly 
accurate? Or roughly correct?
    Ms. McDougle. What fiscal year are you talking about, 
Fiscal Year 1999?
    Mr. Duncan. Yes.
    Ms. McDougle. I don't know.
    Mr. Duncan. And then we were also told that there is about 
6 billion board feet of dead or dying timber in the national 
forests. And in other words, we were told that it was about 
twice the amount that we were cutting. Is that correct? Or you 
don't know?
    Ms. McDougle. Let me get back to your other question. Three 
billion is about right.
    Mr. Duncan. The 3 billion is about right?
    Ms. McDougle. Yes. Now, in terms----
    Mr. Duncan. Well, most of these wildfires that we are 
talking about wouldn't--does a lot of that risk come from the 
dead and dying timber?
    Ms. McDougle. Most fires are caused by lightning. But in 
terms of trees that suffer weakness, yes, it is a contributing 
factor. But most fires are caused by lightning.
    Mr. Duncan. Do you have any idea--I know I read an article 
a few months ago in the Knoxville newspaper that approximately 
half of it was in forests. Do you have any idea, rough guess as 
to how much of the land mass of the United States, what 
percentage is in forests? Is 50 percent, as in Tennessee, 
fairly typical? Or what does it range just out of curiosity? 
Can you make a--do you have a rough idea?
    Ms. McDougle. We don't have that information.
    Mr. Duncan. You don't have that?
    Ms. McDougle. But we can provide it to you.
    Mr. Duncan. Okay.
    Ms. McDougle. I do know that we have approximately 500 
million acres of forested land that are not Federal.
    Mr. Duncan. Five hundred million?
    Ms. McDougle. Nationwide.
    Mr. Duncan. Nationwide.
    Mr. Hill, you have estimated that it would cost 
approximately $12 billion over the next few years, or the GAO 
has, to take care of this wildfire problem. Is that correct?
    Mr. Barry Hill. That is correct.
    Mr. Duncan. But you are talking in that figure just about 
the interior West. Is that also correct? That does not include 
Alaska and the rest of the country, the Midwest, the East, and 
so forth?
    Mr. Barry Hill. That is correct. That is based on the 39 
million acres in the interior West.
    Mr. Duncan. Right, the 39 million. I saw that figure. Do 
you have any estimate as to how many million other acres, like 
in Alaska and Midwest and the East and other parts of the 
country are at risk? Would you have any idea of that?
    Mr. Joy. It has got to be substantially lower, simply 
because in many places, particularly in the Southeast, they 
have been fairly well thinned and taken care of over the past 
largely through the efforts of the Forest Service. We are 
talking here of only about Forest Service lands, by the way. 
And other places generally don't have the climatic and 
vegetative conditions to create these kinds of wildfires. There 
are a few small areas, but it is mainly the interior West. The 
gray portion there is the problem.
    Mr. Duncan. Well, I noticed that--let me also ask this, we 
were told that the Forest Service had a plan to start doing 
something about this or to really take care of this problem 
that a plan that was produced in, I think, 1994. What has been 
done since that time? How far along are we with that plan?
    Ms. McDougle. Are you asking me or----
    Mr. Duncan. Yes, ma'am.
    Ms. McDougle. We have done a lot of activities on the 
recommendations that were included in there, and we would be 
happy to provide you a list of----
    How many were there, Denny, of the 1994 plan?
    There were 39 recommendations, and we have made substantial 
progress on them. So I will be happy to provide a list of the 
statuses of those recommendations.
    Mr. Duncan. Well, what I am getting at, according to a 
staff report that we have, it says that in 1994 you released a 
Western Forest Health Initiative in 1994, but that in 1995 you 
recommended an increase in the number of acres treated annually 
to reduce fuels, but you are not really coming anywhere close 
to your own targets. Is that correct?
    Ms. McDougle. Our targets to treat acres?
    Mr. Duncan. Yes, ma'am.
    Ms. McDougle. Yes. Last year, we did--some of the regions 
did even better than they were targeted to do. And we are still 
counting this year.
    Mr. Duncan. Also, you have got, according to you, a 
maintenance backlog for roads at 7.3 to 8.3 billion, and then 
we need $12 billion to cover these wildfire threats, yet, you 
have been able to request about $219 million in Fiscal Year 
2000 for roads and $65 million for fuels reduction. If we are 
coming that far short of what the money that is needed, is it 
not time for us to start thinking about the Forest Service 
divesting itself of some of this land if we really can't take 
care of it in the way it should be taken care of?
    Ms. McDougle. I think that we have and are looking at many 
new ways of operating that is different from what we have 
traditionally done in order to maintain what we have. I think 
that the American people expect us to maintain it, expect us to 
take care of it, and we just have to seek different ways to do 
it, be it through partnership, leveraging dollars, or whatever. 
But it cannot be done the way it always has been done. We can 
no longer afford that.
    Mr. Duncan. Well, I think that the American people do not 
realize though that we have 23 billion board feet a year of 
growth and we are only allowing 3 billion to be cut, and that 
we have got 6 billion in dead and dying each year. And if 
people want homes and books and toilet paper, and all of those 
kinds of things, we are going to have to allow a few more trees 
to be cut if we are going to keep anywhere close to the 
standard of living that we have now.
    And the Forest Service could and should play an important 
part in that if it was being managed correctly and not by 
extremists. I think that is an important point to get out.
    Thank you very much.
    Mrs. Chenoweth. Thank you.
    Mr. Cotton. Mr. Duncan, could I make two points before you 
move on, very quickly?
    Mr. Duncan. Yes, sure.
    Mr. Cotton. It is true that lightning starts many of the 
fires. The problem is that it is the fuel buildup on the forest 
floor due to suppressing those fires in the past that turns 
what would have been a relatively healthy fire into a 
catastrophic fire that causes damage to both the resources and 
nearby communities.
    The second point is the fact that the Forest Service, even 
though it says it is moving toward a goal of treating 3 million 
acres a year to meet their effort to reduce the 39 million 
acres that need to be treated, they are actually going to 
treat, what is it, 60,000 fewer acres this year than they 
treated last year. They are going to drop from roughly 1.4, 1.5 
million, down to 1.3. So to us, they are moving away from that 
goal, not toward it.
    Mrs. Chenoweth. That is an excellent point, and I thank Mr. 
Duncan for bringing that up and for you in addressing it in 
more detail. In fact, the Forest Service Chief has testified 
before this Committee that there are 39 million acres at 
catastrophic risk.
    We have also had testimony that our forests are in a state 
of near collapse. Out of the 39 million acres, as you had 
mentioned, the Forest Service set a goal of reducing fuels on 3 
million acres, and they have only been able to accomplish that 
on less than 1 million acres.
    So the American people are beginning to ask, what is going 
on with the agency that they can't even reach less than one-
tenth of the acres that have been determined by that agency 
themselves to be at high risk for catastrophic fire.
    So I thank you, Mr. Duncan, bringing that point out. I look 
forward with the new mapping priorities and this new report to 
seeing a new direction for the Forest Service, hopefully.
    The Chair recognizes Mr. Doolittle.
    Mr. Dolittle. Thank you, Madam Chairman.
    Ms. McDougle, when did the Forest Service determine that 
developing a comprehensive agency-wide strategy to combat 
catastrophic forest fires would be one of its goals?
    Ms. McDougle. The first one that we developed was the 
insect-disease one. That shows, across the United States, how, 
where we have the biggest problems in terms of mortality there. 
We are on our fourth iteration of that. We have been funded to 
work through our joint forest sciences program to do that. And 
that was one of the projects that we have identified.
    Mr. Doolittle. No, my question was, when did you make the 
determination?
    Mr. Truesdale. If I may, the plan that is being referenced 
today is developed based on the specific questions and specific 
criteria within the GAO report. So----
    Mr. Doolittle. Okay. So the GAO report was the reason that 
you developed the idea of having a strategic plan to combat 
forest fires. Is that right?
    Mr. Truesdale. This particular one, the 19--I would have to 
look at the dates, the Course to the Future, which outlined the 
3 million acres, was probably done in 1995, more or less. I 
don't know the date exactly.
    Mr. Doolittle. Okay.
    Mr. Truesdale. Earlier iterations of the different plans, 
strategic plans, have been in place for awhile.
    Mr. Doolittle. And let's see, the GAO report was 
commissioned on what date? Mr. Hill, if you know, you can jump 
in?
    Mr. Barry Hill. We have been doing work for the past nine 
or 10 months, but we issued it in its final form on April 2nd 
of this year.
    Mr. Doolittle. Okay. On April 2nd of this year it was 
issued. We are not--June, what is this?--the 29th. I note in 
your testimony, Mr. Hill, that we do not yet have a team, nor 
do we have a team leader--none of those has been appointed. Is 
that your testimony, Mr. Hill?
    Mr. Barry Hill. That was one of the concerns we had. This 
is a problem that we feel transcends not only the agency, the 
way they are currently organized between the headquarters and 
the field structure, but internally with the three areas as 
they are broken up.
    This cannot be accomplished by any one group. It is going 
to take a joint effort. And what we would like to see is that 
joint effort, not only in terms of staffing, but in terms of 
funding.
    Mr. Doolittle. Ms. McDougle, do you dispute the fact that 
neither the members of the team nor the leader have been 
appointed?
    Ms. McDougle. Yes, I do. We are using an existing, 
established forest health team that is corporate in nature, 
crosses functions. And that effort is being led by the Director 
of Fire and Aviation Management.
    Mr. Doolittle. Do you want to respond to that, Mr. Hill?
    Mr. Barry Hill. Mr. Doolittle, the last time we looked, an 
interdisciplinary team that was going to support State and 
Private Forestry in developing that plan had not been 
designated. And the last time we looked was last week.
    Mr. Doolittle. Thank you.
    Okay, now I note that in the testimony from the GAO, which 
says that, we estimate that the cost to the agency to reduce 
fuels in the 39 million acres of national forest land--I 
suppose that was what you were referring to, Mr. Truesdale, 
when you mentioned the 3 million acres per year figure as the 
goal, even though the implementation has been about only a 
third of that. But the 39 million figure comes from that 1995 
report. Is that right?
    Mr. Truesdale. Yes.
    Mr. Doolittle. So, quoting the report, we estimate the cost 
to the agency to reduce fuels in the 39 million acres of 
national forest land in the interior West that are at high risk 
could be as much as $725 million annually, or more than 10 
times the current level of funding for reducing fuels. Now, I 
understand that we are not increasing our level of funding in 
this fiscal year coming up. Is that correct?
    Ms. McDougle. That is correct.
    Mr. Doolittle. And could you tell me why you have decided 
not to increase the level of funding given this testimony from 
the GAO?
    Ms. McDougle. Well, the administration has many priorities, 
and that is one of them.
    Mr. Doolittle. Well, you are the administration responsible 
for the forests. Did you request, or should I say, did the 
Forest Service that you represent request of OMB or the 
administration an increase in the amount of funding?
    Ms. McDougle. The agency request was higher.
    Mr. Doolittle. The agency request was higher. How much 
higher?
    Ms. McDougle. A hundred million.
    Mr. Doolittle. So the agency requested a hundred million 
more dollars than the administration chose to give it in the 
final budget. Is that right?
    Ms. McDougle. It was a hundred total. Thirty-five million 
more.
    Mr. Doolittle. So they asked for $35 million more. And what 
was it that the administration included in this budget? What 
was the figure?
    Ms. McDougle. Sixty-five.
    Mr. Doolittle. So they included $65 million, and you asked 
for half again as much, roughly, at $35 million. According to 
this, you would need 10 times as much in order to meet the 
goal.
    I just wanted to ask the GAO, and this has been a concern 
of mine, and Mr. Duncan got right to it in his questioning, 
pointing out--you know, I have been on this Committee for eight 
and half years and catastrophic forest fire has been the 
subject of testimony from the Forest Service and others for 
every one of those years that I can recall.
    Back in those years, we were looking at growing four to 
five times as much board feet of timber annually as we were 
harvesting. Now using the figures that Mr. Duncan has used, and 
I guess the Forest Service, I understand, is agreeing to them, 
it is now more than seven times the amount of board feet of 
timber that we are growing annually as contrasted to what we 
are harvesting.
    But I would like to ask Mr. Hill and his experts, aren't we 
vastly, almost geometrically, compounding this problem of 
overgrowth in the forests, even if we went with the goals of 
the Forest Service? It is my understanding by, what is it, 
2015, there would still be 10 million acres of the 39 that 
would be untreated. And yet, we fail to take into account that 
all of these acres, treated and untreated, are continuing to 
produce timber.
    So, Mr. Hill, did you take into account this huge 
mathematical compounding of the problem as you did your report?
    Mr. Barry Hill. Well, yes. Obviously, that was part of our 
calculations. And they do seem to be losing ground.
    Mr. Joy. Mr. Doolittle, I would like to clarify one thing. 
The Forest Service testified today that they feel that they can 
do substantially less than 39 million acres of fuel reduction 
and protect the forest. And our report stated that it could 
take up to $12 billion. They said it could be less.
    We agreed that it could be less. Our point is, if you are 
going to spend less, then you have to specify and arrange those 
places you are cutting in a priority to reduce the risk to the 
remaining, to break it up in some way, so that fire can't 
spread across it. Until they have established, though, that 
kind of priorities, there is no basis for eliminating any of 
the acres from the at risk acres.
    Mr. Doolittle. Well, I think you brought the facts out. I 
mean, the Clinton Administration is saying one thing and doing 
another. And we are falling dramatically behind in keeping up 
with the health of our forests. And by the way, there is the 
implication, Mr. Hill, in your report that most of this problem 
is basically due to this undergrowth, you know, these inch in 
diameter types of things that are growing.
    Even in Ms. McDougle's testimony, she acknowledges that 
there is severe overgrowth--if I can find her testimony right 
here. She says on page 2 here that many of these stands are 
dense and overcrowded with high mortality rates due to bark 
beetles and other insect outbreaks. I can tell you, as I fly 
over my Sierra Nevadas--and I believe your own information 
backs this up--over one-third of the stand is made up of dead 
and dying trees.
    I mean, they are obviously, from the air, brown trees. It 
is appallingly bad. The forest health is the worst it has ever 
been in the 20th century. And I, you know, would like to 
clarify or ask you to clarify--you have sort of implied this is 
mainly due to the dense undergrowth.
    What about the standing trees that are dead and dying? 
Doesn't that in conjunction with the dense undergrowth and 
lightning produce these sorts of catastrophic forest fires that 
sear the soil for years and produce these devastating 
consequences.
    Mr. Joy. You are absolutely right, Mr. Doolittle.
    Mr. Doolittle. Well, then, why didn't you put that more 
forcefully in your report?
    Mr. Joy. In point of fact, many of the dead and dying trees 
occur because the stands are weakened because of excessive 
undergrowth. It is a succession of problems in which the 
excessive number of trees compete too much for nutrients and 
water. And then the trees become susceptible to the bugs, and 
you have a suite of problems.
    Mr. Doolittle. I'll ask the last question because I am 
running over. But I have to go. And I want to ask this one 
question.
    There was a time in this country, up through the 1980's, 
when we were able to carry out a decent timber program, where 
we cut live trees. We were able to thin out the forest. They 
were healthy. They were in great shape. And things were running 
correctly. The Clinton Administration has succeeded in slowing 
this down. I think we have now reduced our timber harvest by 
about four-fifths of what it was in 1990.
    Did you conclude, Mr. Hill, or your associates, that that 
reduction in the timber harvest has had some negative impact on 
forest health?
    Mr. Barry Hill. No. I can't say we concluded that. There 
are a lot of factors that go into the current forest-health 
problem. And it is true that you could use a timber program to 
help in solving some of this problem----
    Mr. Doolittle. But that would be politically incorrect, 
wouldn't it? That wouldn't appease Mr. Gore's friends.
    Mr. Barry Hill. That, Mr. Doolittle, I will not answer, but 
I will say that is not the sole solution to the problem, and I 
think in our report----
    Mr. Doolittle. I didn't say it was, but is it part of the 
solution? Well, I wish you would say that in your report.
    Mr. Barry Hill. And I believe we do say in our report that 
a small percentage of this problem could be managed through the 
timber program.
    Mr. Doolittle. Does it concern you that we have to pay 
people to go in and take out these dead and dying trees? 
Whereas, if we got them within a year after they started to be 
dying that they would have commercial value and then someone 
could pay for them other than the taxpayer?
    Mr. Barry Hill. Well, it concerns me the problem that we 
have. And unfortunately, most of the problem that we currently 
are dealing with is basically non-commercial value materials.
    Mr. Doolittle. Yes, and how do they get to be non-
commercial value, when speaking of trees, the ones I see from 
the air that are all brown? How do they get to be that way?
    Mr. Barry Hill. Well, that may be a question that you want 
to direct to the Forest Service, Mr. Doolittle.
    Mr. Doolittle. Well, I would like the GAO to look into 
that, but I will direct it to the Forest Service and ask you to 
report your findings there perhaps in a written supplemental 
statement.
    Thank you, Madam Chair.
    Mrs. Chenoweth. Thank you, Mr. Doolittle. And the Chair 
recognizes Mr. Gilchrest for questions.
    Mr. Gilchrest. Thank you, Madam Chairman. John asked all my 
questions. I have a couple more, though.
    Ms. McDougle, could you tell us when did the policy of fire 
suppression in the Forest Service change?
    Ms. McDougle. What do you mean the policy of fire 
suppression? Can you clarify that for me?
    Mr. Gilchrest. Well, I guess it used to be, you know, in 
the Park Service and the Forest Service, for most of the 19th 
and 20th centuries, there was a policy of suppressing fires. 
And part of the reason we have buildup of fuel is because of 
the suppression of fires in our nations Federal land.
    And I don't know the answer to this: Was there a point in 
time when the Department of Interior or Department of 
Agriculture said that the suppression of fire is a bad idea and 
we have to change that policy? Was there ever a time when that 
happened? Last 10 years, 20 years?
    Mr. Truesdale?
    Mr. Truesdale. Yes, I may. I don't think either agency, any 
of the Interior agencies or any of the Forest Service will ever 
say that suppressing fires is a bad idea. We still have to 
suppress most of the fires. We can't allow them to go back to 
their natural role because of either the condition of the 
forest or the wildland-urban interface or a whole range of 
reasons to suppress fires.
    In 1995, in December of 1995, Secretary for Agriculture and 
the Interior signed the Wildland Fire Policy, which 
reaffirmed--it wasn't really a change in policy, I don't 
believe--it reaffirmed the fact that fire suppression is a key 
part of our management strategy. It reaffirmed the fact that 
due to aggressive fire suppression over the past 50 years and 
the elimination of fire in large areas of the forest, we have 
resulted in the problem that GAO has just reported about in 
their report.
    And that what we need to follow up on is get that re-
introduction of fire back into the ecosystem through an 
aggressive fuels treatment program and through the use of wild 
natural ignitions and allowing them to burn where feasible.
    Mr. Gilchrest. How long has it been recognized? It seems to 
me--I'm not a forester; I live in the State of Maryland and all 
that, and I am here with my western companions--it seems to me, 
though--I lived for awhile in a designated wilderness in 
northern Idaho in 1986 and 1987. And at that point, the Forest 
Service recognized that a healthy forest was one when there was 
a lightning strike probably didn't burn more than a couple of 
acres. The buildup of fuel was damaging to the health of the 
trees and posed a catastrophic danger for uncontrolled fire 
that causes their own weather and a whole range of other 
things.
    That was back in 1986 and 1987. They were very familiar 
with that policy. So over the years--and I guess I will ask 
this to GAO, and I haven't read your report--can you point to, 
is it the leadership in the Department of Agriculture that 
didn't say 10 years ago, 15 years ago, so many years ago that 
we are having a buildup of fuel; we need to deal with this 
issue? Was it a lack of resources? Can you point to a specific 
series of problems that caused the situation we now find 
ourselves in? And do you have some specific recommendations for 
us to get out of it?
    I know that is a simplistic question, with complicated----
    Mr. Cotton. Well, actually, what we have found for this and 
other problems was that it was a lack of knowledge. The Forest 
Service has learned a lot over the past 15 years. And if there 
is one thing that holds true for Federal land management in 
general is the issue of unintended consequences.
    You do something for one reason, such as putting out fires 
and suppressing smoke--okay?--in populated areas and 
everything. And by doing that, you create another problem that 
you maybe never thought of or never considered the consequences 
of when you made that decision.
    But, quite honestly, you can probably end up blaming this 
whole thing on Smokey Bear. I mean, he is suppressing fires. 
And that was the idea, whether they will----
    Mr. Gilchrest. It seems that, back in 1986, it was very 
clear in my mind; having been in this, living in this 
wilderness cabin, one of my duties was to look for forest 
fires.
    Now they weren't going to be fought, but I was to report 
and lightning strike for forest fire that I saw and where it 
was. But it was clear back then from those fellows at Powell 
Ranger Station on Lochsa River in the Bitterroot Mountains that 
suppressing fires caused major problems.
    Mr. Joy. Mr. Gilchrest, first of all, you have lived--that 
is a wonderful place to be. I say that as a Marylander.
    Secondly, however, one of the real difficulties here is 
that we are running out of decision space. There is a 
difficulty reconciling the different stewardship requirements 
of watersheds, resources, species, and keeping fuels down--and 
we have got a lot of people moved into the neighborhood.
    So as Mr. Truesdale accurately said, deciding when and how 
you let a fire burn and when the situation has gotten too 
complex to let it burn, is a difficult one to make.
    I think what our report really is talking about is the fact 
that we have to understand those conditions and set priorities 
that maximize as best we can in the situation. You are not 
going to be able to let everything burn. The reason since 1986 
there hasn't been a dash to lighting matches or whatever, 
letting it burn, is because there are other resources at risk--
including air quality, which is better in many places than 
nature ever put it out there.
    We have to make some choices--I mean, the Forest Service is 
facing some difficult reconciliation chores. Our point is, that 
can't be done on the basis of ad hoc. There has to be a very 
cohesive strategy that clearly recognizes those priorities and 
makes it absolutely transparent to everyone what the thinking 
is that is going into it. And that is the difficulty, and that 
requires a really cohesive strategy.
    Mr. Gilchrest. Thank you very much.
    Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Gilchrest. The Chair 
recognizes Mr. Peterson for questioning.
    Mr. Peterson. I just want to follow up on the discussion 
that just transpired. You just mentioned that the reasons we 
manage forests is for watershed, air quality, wildlife, and the 
forest. We have all these--you talked like they were competing 
reasons to manage. Did you mean that, that these things are 
competing and what is good for one isn't good for the other?
    Mr. Joy. They are very difficult sometimes to reconcile 
because the forests have been changed a lot, and there are 250 
million people----
    Mr. Peterson. I don't speak knowledgeably about the West. I 
spent three days in the West touring the forests a couple of 
years ago. So I have limited knowledge--I grew up in the 
Eastern forests; I understand the hardwood forests, but I don't 
really understand the softwood forests.
    But, you know, I think you are making it more complicated 
than it really needs to be. If you have a healthy forest, the 
rest happens. You will have watershed protection, you will have 
wildlife, you will have clean air. All the things win when you 
have a healthy forest.
    And while we may be managing for these other things, if we 
allow the forest to become unhealthy, it all falls apart. And I 
think that is where we are at. We have a--it is not that 
complicated.
    Mr. Joy. It isn't, Congressman.
    Mr. Barry Hill. It is complicated now because we have 
allowed the forest to become unhealthy. Now the problem is, how 
do you correct that problem? And that is a complicated answer. 
It is putting Humpty-Dumpty back together.
    Mr. Peterson. Yes, but if you have a dying--and I was 
amazed: I flew over the huge burnout there that I guess I had 
never seen anything like that. It seemed like we flew in 
choppers for hours before we saw any vegetation that was alive. 
I mean, it appeared to be sterile. And it was right after those 
huge fires a couple years ago.
    And nothing is worse than that because the devastation 
there to--there was no wildlife left, there was no environment 
left. And only the good Lord knows how long it will take to 
come back.
    But it appears we--because we have accepted a no-cut 
policy, that cutting is some horrible thing, we have allowed a 
process to develop where, and this is not the case in the East 
where I come from, but I am told out there that every part of 
the West has a different amount of stems that will support with 
waters and nutrients. I mean so, you are on this ridge, it may 
be 60 stems per acre, and this ridge it may be 40 stems per 
acre. And we seem to be able to determine that.
    But if we don't, and then you have a couple wet seasons and 
you get a lot of vegetative growth and then you come back to 
your normal dry seasons, and we stop the fires and we got the 
whole nature, balance of nature, out of sorts, because it is 
immoral and sinful to cut down a tree, we can't fix it.
    Now, I am not prescribing this, but I was at a forest 
association banquet, or a breakfast, yesterday in Pennsylvania 
for the National Association of Foresters. And the ex-State 
Forester, who is a good friend of mine when I was in State 
government, gave a review of Pennsylvania's forests and how 
they were totally destroyed by the people who cut all the 
hemlock and the beech for the bark. They didn't cut it for the 
wood. They cut it for the bark and totally destroyed 
Pennsylvania's forests.
    But the Lord was good to us. There was a little bit of 
hardwoods mixed in, and when it came back we have a gorgeous 
hardwood forests, and we have very limited beech and very 
limited hemlock. But we have cherry and oak and maple, and all 
the high-quality species the good Lord gave us.
    But just 50 or 60 years ago, that was just a brush pile. 
And it wasn't much of anything. In some cases, it's to the 
point where we are going to have to go in and cut down dying 
forest and help a new forest to grow.
    But it appears like we are in a policy where that is 
considered evil; we are going to wait until it destroys itself 
because it is going to have a fuel load that a fire will be 
uncontrollable once it starts. And when it gets done burning, 
there is not going to be anything left.
    And so, I think somehow we are going to have to have a 
public discussion about that. And the anti-cut people are going 
to have to realize that it is either cut or burn. And which is 
worse?
    And when it burns, from what I saw, I don't think anything 
wins. The air certainly didn't win; wildlife had to be 
destroyed if it didn't run fast enough; and the water quality 
had to go to hell in a hand basket. It just had to. There was 
no winners with a major fire.
    And I just don't think we look at that seriously enough. We 
are still arguing about do we cut down trees or don't we cut 
down trees. And if there are 200 trees on an acre and it can 
only support 50, if you don't cut 150 down, you are not going 
to have any.
    Now maybe I am oversimplifying, but it seems to me that we 
have to get serious about it, and maybe we have to figure out 
another creative way of how to utilize this waste in some 
productive way because it appears now we are down to the point 
where we don't have any value. We have to somehow pay somebody 
to come in and fix it. And we don't have the resources, or we 
are not willing to put up the resources to do that.
    But it just seems terrible to me that we end up with what 
was a wonderful forest in the West slowly being destroyed 
because of competing policies that can't come together.
    Any of your thoughts?
    Mr. Cotton. Mr. Peterson, it gets back to that issue of 
trust. And that is why it is so important for the Forest 
Service to develop a strategy based on good science that will 
convince people that harvesting timber is a valuable tool in 
restoring forest health and that, if you are going in to cut 
commercial timber, you do cut commercial timber, but if you are 
going in with the purpose, a stewardship purpose, to restore 
forest health, that you only harvest those trees that critical 
to getting you to that desired condition.
    And that is why you really can't have any false starts. You 
are going to have to have a good strategy; you are going to 
have to convince people of the fact that we are doing it right. 
And the way you do that is public participation.
    Mr. Peterson. And if we have, continue to have, political 
figures making those decisions that don't know much about 
science of forestry, we will continue to go down the road we 
are in, which is the wrong road, in my view. I think 
politicians have gotten in the way of good science. And 
political people have spoken and are controlling what we do in 
the forest today who don't know anything about managing 
forests. And I think that is the problem we are at. And until 
we are willing to face that, I don't know we solve the problem.
    Mrs. Chenoweth. Thank you. Mr. Peterson. The Chair 
recognizes Mr. Hill.
    Mr. Hill of Montana. Well, thank you, Madam Chairman. And I 
want to thank all the members of the panel for their testimony 
and their comments.
    Ms. McDougle, I have a few questions. I want to make sure--
you indicated the Forest Service accepts certain aspects of the 
GAO report and then takes dispute with some other aspects. And 
I just want to read a couple of things that are in the report, 
and I would ask you if you agree or disagree with those.
    The GAO report says that the most extensive and serious 
problem related to the health of national forests in the 
interior West is the over-accumulation of vegetation, which has 
caused an increasing number of large, intense, uncontrollable, 
and catastrophically destructive fires. According to the Forest 
Service, 39 million acres on national forests in the interior 
West are at high risk of catastrophic wildfire.
    Do you take issue with that statement, or do you agree with 
that statement?
    Ms. McDougle. I agree.
    Mr. Hill of Montana. The report goes on to say that the 
increasing number of larger, more intense fires pose grave 
hazard to human health, safety, property, and infrastructure. 
Do you agree with that statement?
    Ms. McDougle. Yes. And that is why we are focusing as a 
national priority working on the wildland-urban interface 
issue, because of that reason.
    Mr. Hill of Montana. Okay. My point is, this has been 
identified as the most intensive and serious problem, and that 
the increasing number of fires pose grave risks to human health 
and safety and property. Because then the report goes on to say 
that maintaining current funding levels for preparedness as is 
now planned will result in increased risks of injury and loss 
of life.
    Do you agree or disagree with what----
    Ms. McDougle. Would you repeat that again?
    Mr. Hill of Montana. Page 5 of the GAO report says, 
``maintaining the current funding levels for preparedness, as 
is now planned, will result in increased risks of injury and 
loss of life.''
    Ms. McDougle. I wouldn't agree with that. I don't know that 
to be true, given the priorities that we are focusing on next 
fiscal year that are highly identified in our budget. I also 
have, take exception with the costs that GAO has identified to 
fully implement----
    Mr. Hill of Montana. You have testified to that already, 
but I want to come back to this.
    Then what you are saying is, the current levels of funding 
are sufficient to protect the property and well-being of the 
people in the interior West. Is it sufficient or is it----
    Ms. McDougle. Oh, in the interior West.
    Mr. Hill of Montana. I mean, it is either sufficient or it 
is insufficient.
    Ms. McDougle. It is more than just the funding. It is all 
the other conditions and values that we have to consider. It is 
not just throwing money at it.
    Mr. Hill of Montana. Okay.
    Ms. McDougle. It is having good weather. It's all of the 
components. It is having public acceptance and valuing, all the 
other things that make a difference. But it is not just 
dollars.
    Mr. Hill of Montana. So you don't need more dollars or you 
do need more dollars? I am trying to find out what the answer 
is.
    Ms. McDougle. We can use more dollars, yes.
    Mr. Hill of Montana. I am asking though if you need them or 
not. I mean, you asked for $100 million, you got----
    Ms. McDougle. And we believe we could advance the program 
with that, yes.
    Mr. Hill of Montana. Can you do what is necessary to 
protect the property and the people of the West with the 
current level of funding, the $65 million? That is the question 
I am asking.
    Will $65 million per year be sufficient for you to protect 
the people and the property? We have identified that it is at 
risk. Is that enough money, or not enough money?--is what I am 
trying to find out.
    Ms. McDougle. We have testified before this Committee, I 
believe, that by 2005 we will be burning--our goal is to burn 3 
million acres a year, or treat 3 million acres a year.
    Mr. Hill of Montana. That's the next question I have, and I 
think Mr. Joy, I think, one of the things that you commented 
earlier is that you said you could blame this whole thing on 
Smokey the Bear. That is a little bit simplistic, isn't it? The 
fact is, there were catastrophic fires in the West before there 
was logging in the West and before there was really settlement. 
Isn't that true?
    Mr. Cotton. Well, since I blamed it on Smokey, I will take 
the question. The point is, there has always been fire in the 
West.
    Mr. Hill of Montana. And big fires.
    Mr. Cotton. Okay. In the past, they were not as intense, as 
large as they are now, because fire swept through those systems 
far more often. It was less to burn.
    Mrs. Chenoweth. Would the gentleman yield, please?
    Mr. Hill of Montana. Certainly yield.
    Mrs. Chenoweth. I am sure in the gentleman's district, as 
well as in my district, the ravages from the 1910 fire still 
exist. And that fire burned across three States and burned so 
deep into the soil that even today, nearly 90 years later, we 
have not been able to see a natural revegetation occur, even in 
fact, we can't even plant trees and have them grow there 
because the soil was sterilized to such a vast degree because 
of the intense heat from the fire back in 1910.
    And I yield back to the gentleman.
    Mr. Hill of Montana. I thank the gentlelady. As a matter of 
fact, every analysis that I have read, for example, of 
Yellowstone Park, it has been the site of catastrophic fires at 
relatively regular intervals over periods of centuries. But the 
point I was getting at is that I think your comment is that we 
are running out of time, decision time. And the suggestion that 
we are going to solve all this problem with prescriptive 
burning is just unrealistic, isn't that true?
    Mr. Joy. That is not our recommendation.
    Mr. Hill of Montana. That is not your recommendation?
    Mr. Joy. And let me clarify. Our use of the phrase 
``catastrophic fire'' is borrowed from the Forest Service. And 
we would make distinctions. Certainly the 1910 fire was a huge 
fire. That happened for a whole host of reasons that are 
different than the current conditions. One of the things that 
makes a fire that is a large fire now, even not as large as the 
1910, in some ways, catastrophic is because we have a lot more 
people and things in the way. So it is a lot of other things 
that go into the definition of ``catastrophic.''
    Mr. Hill of Montana. And the intensity of the fire and how 
that impacts the soil and watersheds and other issues is part 
of that because of the excessive fuel?
    Mr. Joy. And danger to firefighters and the whole bit.
    Mr. Hill of Montana. Which means that we are going to have 
to use mechanical methods of mimicking fire. I mean, isn't that 
part of what the solution is going to--prescriptive fire may be 
part of this?
    Mr. Joy. Our report does indicate that it is going to 
require all of those, but it is the general consensus that it 
is clearly going to require mechanical means as well.
    Mr. Hill of Montana. Ms. McDougle, earlier you said that, 
in response to Mr. Doolittle's questions, with regard to the 
fact that the GAO has pointed out that a team hasn't been 
appointed, and a leader hasn't been appointed to deal with this 
strategy. And you said that actually you have identified some 
people within the Forest Service to do that.
    I just want to contrast this with how the Forest Service 
has taken up the issue of roads. Interestingly, the Forest 
Service has put greater priority on its road management plan 
than it has on its fire hazard management plan. In fact, that 
has been identified I think in both testimony and reports.
    But isn't it true that the road issue is going to be part 
of the fire management issue as well? I mean, isn't this kind 
of putting the cart before the horse?
    Ms. McDougle. You mean in terms of access?
    Mr. Hill of Montana. Yes.
    Ms. McDougle. Our field leadership hasn't identified that 
as a problem.
    Mr. Hill of Montana. Except that you haven't identified 
that as a problem that you may close roads or reduce access to 
forest that you haven't decided yet how you are going to 
manage?
    Ms. McDougle. That has not been a problem in the fire 
arena. It has not been identified to us as being an issue.
    Mr. Hill of Montana. Let me ask you one other question, and 
that is, how far along are you to risk modeling on individual 
forest basis? Have you identified the risks in each forest yet?
    Ms. McDougle. They are doing--the field is doing a 
validation of the maps.
    Mr. Hill of Montana. But you do have some risk analysis 
that is done already?
    Ms. McDougle. We have done some at the national level, and, 
yes, additional work will be done on the ground too.
    Mr. Hill of Montana. But has some work been done, some risk 
modeling work been done by----
    Ms. McDougle. In certain areas of the country, but spotted. 
It is spotted.
    Mr. Hill of Montana. Is the work that has been done to date 
available to this Committee?
    Ms. McDougle. Certainly.
    Mr. Hill of Montana. Okay. So if there are any risk models 
or maps or any of that material that has been completed to 
date, you will provide that information to this Committee?
    Ms. McDougle. I am trying to be clear on what it is you are 
expecting.
    Mr. Hill of Montana. Whatever risk modeling that has been 
done on an individual forest basis with regard to risk 
associated with damage to property or to life or to the 
resource itself or to habitat or to watershed. Any of that work 
that has been done, any maps that have been done.
    Ms. McDougle. Okay.
    Mr. Hill of Montana. That information is available to the 
Committee?
    Ms. McDougle. Certainly.
    Mr. Hill of Montana. Lastly, if I could have just one more 
minute, Madam Chairman? Mr. Hill, Ms. McDougle says that they 
don't need more money. You have testified that they need about 
$725 million a year. Would you care to comment on that, comment 
that they don't need any additional money to address the 
problem of risk to people and property? Is that realistic?
    Mr. Barry Hill. Well, the only comment I would have is it 
must be a heck of a strategy they are coming up with because 
they haven't been able to come near their goals with the amount 
of the money they have been spending so far.
    Mr. Hill of Montana. So with no team, no leader, and a 
commitment to have this by the end of 1999--you have identified 
that they don't have good risk data now to do this with. The 
fact that they are not going to--the comment that they would be 
able to do this with existing budget, does that seem pretty 
unrealistic to you?
    Mr. Barry Hill. Yes, sir, it does.
    Mr. Hill of Montana. Thank you, Madam Chairman. Thank you 
to all the members of the panel.
    Mrs. Chenoweth. Thank you, Mr. Hill. The Chair recognizes 
Mr. Sherwood for questions.
    Mr. Sherwood. Thank you, Madam Chairwoman.
    This has been a very disturbing hour and a half to me. 
Unless I am mistaken, I heard the Forest Service agree with the 
GAO's report that we have a crisis in our national forests and 
our forest lands in that we have way too much fuel accumulation 
so that we do not have a healthy forest, and yet, I then have 
heard that we don't have too much of a plan or too much money 
to back the plan up, and yet we think we are going to be 
successful and solve the problem.
    And as an observer here today, that just doesn't compute to 
me. I think we have one of the greatest resources that we as a 
nation have been entrusted with, and it has been managed by the 
science of the day for a hundred years. And if I am to believe 
what I hear today, it is probably in the worst shape it has 
been in a hundred years.
    Now, where are we going here, folks? It sounds to me like 
the Forest Service is carrying the administration's and, to 
some extent, good-meaning policies from the environmental 
community's water instead of doing their job and taking care of 
our forests.
    Would anyone like to comment?
    Ms. McDougle. I understand you concerns. The issue is real. 
I would hope that you not leave this hearing thinking that the 
Forest Service is doing nothing about it. Most of the forests 
in this country are healthy, but we do have problem areas. And 
we are doing what we can within the budgets that we are given 
to address it.
    This does not mean that we are going to treat every acre or 
need to. And that is why I had some concerns with the GAO 
budget estimate. It doesn't mean that, but I don't get to say 
what it does mean, the field leadership does, and it differs 
all over the country.
    Mr. Sherwood. Well, active work to create a longstanding 
problem is very difficult, and it is a huge job. But I think 
first we have to get good policies. Now we don't have in 
Pennsylvania the huge fire problem that you have in the West 
because we have more moisture. But we have the same problem 
with changing forests. You know, they have gone from a 
coniferous forest to a hardwood forest and now with gypsy moths 
and dying oak, they are going back in some respects to a 
coniferous forest, which will not be nearly as valuable to us.
    And yet, in the Allegheny National Forest, which is where 
the highest quality furniture and veneer lumber in the world 
comes from, we have the Allegheny forest shut down. There is no 
harvesting allowed in the Allegheny National Forest. So that 
forest is becoming over-mature. When it becomes over-mature, we 
waste the resource, and the private grounds surrounding the 
Allegheny National Forest has so much financial pressure on it 
that it is being over-cut.
    So ``unintended consequences'' I think could be the title 
of this hearing today. But not only unintended consequences of 
our policies over the last hundred years, but unintended 
consequences of the policies that we are pursuing today.
    And I will stop now, but it is very concerning to me that 
we don't seem to learn from our mistakes. And if anybody wants 
to take anything I have said apart, you are welcome. I would 
love to hear it.
    Mrs. Chenoweth. Are there any comments from the witnesses?
    Ms. McDougle. No.
    Mrs. Chenoweth. Mr. Sherwood, thank you very much. The 
Chair recognizes Mr. Herger for questions.
    Mr. Herger. Thank you, Madam Chair.
    Ms. McDougle, you just stated, I believe, that you--I tried 
to write it down as you stated it--that you understand our 
concerns. Now I have been listening to this testimony for the 
last hour and 35 minutes, and as a Member of Congress who 
represents northeastern part of California, all of or parts of 
11 national forests, which is part of this area in interior 
West on the map over here, and areas, that by looking at that--
I would say it is probably more than a quarter of the entire 
United States--that not only do you not understand our 
concerns, Ms. McDougle, I am convinced you don't have a clue of 
our concerns.
    You stated earlier in your testimony that the American--and 
you said this very emphatically--that--I wrote this down, too, 
when you stated it--that the American people expect action. Is 
that not what you said?
    Ms. McDougle. Yes.
    Mr. Herger. The American--well, I wrote it down. You said 
very emphatically that the American people expect action.
    My question to you is--and we have talked about this with 
earlier questions--but with the fact that the GAO says that--
and I might mention, I am in an area that has forests that have 
catastrophic wildfires in them virtually every year, forests 
that in many areas are two and three times denser than they 
were historically simply because we have eliminated fires over 
the years, well-meaning Smokey the Bear fires and now our 
forests are so dense, two and three times denser in areas 
competing for the same amount of moisture in our area, which is 
prone to drought. Six of the last 13 years have been droughts. 
Four of those--five of those have been consecutive droughts.
    Now we have areas that are just a time bomb waiting to 
happen. This is not new. It has been this way for all of the 
almost 13 years that I have been representing that area. This 
is not new to the Forest Service. But my question is to you, 
when you say that the American public people expect action, and 
when you say that you understand our concerns, and yet your 
plan is only to treat 3 million acres when the GAO says there 
is 40 million acres that are in need of being treated.
    Can you tell me how you can say that, how you can define 
that as a definition of action? And how you even have the 
slightest idea of our concerns?
    Ms. McDougle. The situation and concerns you spoke of are 
not unique to your corner of the world, sir. There are a lot of 
considerations that we have to bring into decisions as to how 
fast we can target this. We have never maintained in any 
hearing that we are going to treat all 39 million acres, or 
that we need to.
    And so, I am a little taken aback by that----
    Mr. Herger. Do you feel that 3 million of 39 is enough, and 
I might go on as an additional question, is of that 3 million, 
you are only treating one-third of that. So you are only doing 
one-third of 3 million. I would ask you, does this not verge on 
being criminal? And is there any correlation perhaps that, for 
the first time with the Clinton-Gore Administration, the 
leadership of the Forest Service is now a political appointee 
where never before it was? Perhaps it is because of the 
leadership of the extreme environmental community that perhaps 
pulls strings that only allows you to treat one-tenth or less 
than that of what needs to be treated?
    And how you can sit before us and have the audacity to 
state that you understand our concerns or that the American 
public expects action, and yet you are doing virtually nothing? 
Could you respond to that, please? Virtually nothing.
    Ms. McDougle. Again, we have air quality considerations. 
Our target is 3 million acres a year. We never----
    Mr. Herger. Out of 40. You are only doing one-third of 
that.
    Ms. McDougle. We never testified that we were going to do 
that----
    Mr. Herger. And yet you don't want more money, and that is 
what the GAO says you need to be able to do--in other words you 
are going downhill.
    Ms. McDougle. I don't know if that is true, sir.
    Mr. Herger. You are getting worse on your results, not 
better.
    [Chairwoman uses gavel.]
    Mrs. Chenoweth. Please let the Congressman complete his 
question.
    Mr. Herger. I am completed.
    In other words, you are getting worse, not better. Your 
results are far worse than they used to be, not better. Again, 
how can you sit here representing a political appointee and say 
somehow you understand and that you are working on this or even 
making any allegation you are doing better. Not only are you 
not doing better, you are doing far worse and are basically 
ignoring completely the problem.
    Ms. McDougle. Is that a question or a comment, sir? I am 
not clear.
    Mr. Herger. Well, it is a statement that I wouldn't mind 
you attempting--I know it is pretty difficult to respond to 
it--is the fact that I believe I have stated, I wouldn't mind 
you responding to it.
    Ms. McDougle. I think we are moving very aggressively to 
deal with----
    Mr. Herger. Very aggressively?
    Ms. McDougle. Yes.
    Mr. Herger. Three million out of 40, you are only doing 
one-third of that. Are you--you say that is aggressive? What, 
in your opinion, would be non-aggressive?
    Ms. McDougle. We have moved----
    Mr. Herger. What would your definition of not being 
aggressive be?
    Ms. McDougle. We have moved in the last five years or so 
from a little over 300,000 acres to 1.3 million, and so, yes, 
we do think we are getting the job done.
    Mr. Herger. You are really moving, aren't you?
    Ms. McDougle. And we are focusing. We are focusing.
    Mr. Herger. You really are?
    Ms. McDougle. Yes. That's----
    Mr. Herger. I don't know how you can sit before this 
Committee and even make the statements that are so outrageous 
with the facts being what they are. I represent a community--
let me just, a district that is burning up, where forest health 
is virtually completely destroyed by the incredible mis-action 
and policies of the Federal Government and the Clinton-Gore 
Administration and the Forest Service. And I think it is time 
the country be aware of that.
    Thank you, Madam Chair.
    Mrs. Chenoweth. Thank you, Mr. Herger. The Chair recognizes 
Mr. Udall.
    Mr. Udall. Thank you, Madam Chair. And thank you, Panel, 
for taking your time to be here today.
    I have a large group of questions; I don't think I will be 
able to get to all of them, but I wanted to start out and just 
set the stage for you in regards to my district. I represent 
the 2nd district in Colorado, which includes a lot of the 
northern Denver suburbs and Boulder County. But then it has two 
mountain counties, Gilpin and Clear Creek. And we have quite a 
bit of national forest lands there.
    In our area, the big issue right now is the urban-wildland 
interface, and I had a letter here that I think complements 
that point of view. And I want to just make a comment about 
that. In some of our counties, local governments are using 
zoning and fire codes, such as restriction on building 
materials and where you can build your homes as tools to reduce 
the risk of property loss from fire.
    Does the Forest Service work with local governments along 
these lines?
    Ms. McDougle. Yes, we do. And we also, in terms of our 
research component of the organization, help develop some of 
these treatments to make more fireproof building materials.
    Mr. Udall. Ms. McDougle, I don't know if you have seen a 
paper that I have been given reporting on--actually, it is a 
letter reporting on a paper that is based on some research, 
suggesting that reducing the ignitability of houses in the 
interface could be as important as other steps that would 
reduce risk. Are you familiar with this paper? And would you 
have any comments along those lines?
    Ms. McDougle. I think I know what you are talking about. I 
have not seen the research paper itself; I just saw an article 
that referred to it. But, Denny, do you want to speak to that?
    Mr. Truesdale. Yes.
    Ms. McDougle. Is that the Oregonian article?
    Mr. Udall. Well, I have--actually, now I have two. One is 
Jack Cohen has done some research, and then I have another 
report here from John Kealey and Mr. Fatheringham, and Marco 
Morais as well.
    If you could, maybe for the record, Madam Chair, submit 
some comments in the near future?
    Ms. McDougle. We will be happy to, if we have them.
    Mr. Udall. Thank you for that.
    Mr. Udall. Hearkening back to, I think, some questions that 
Mr. Doolittle asked. I want to direct these to Mr. Hill. There 
was some discussion whether the problem we are talking about is 
whether enough board feet are being removed or not.
    I wonder if the proper measure, in terms of reducing fire 
danger, has to do with board feet, a certain amount of board 
feet is being removed or if instead it's how many acres we are 
getting treated. Could you speak to that?
    Mr. Barry Hill. Well, I think, what we were saying was--I 
mean, you have got a problem out here, let's just talk the 
interior West now, 39 million acres. And I think what you need 
to do is figure out where those problems are and what are the 
best techniques or tools for dealing with it. In some cases, it 
is mechanical. In some cases it is controlled burns. In some 
cases it is timber harvesting or thinning or clearing out areas 
and doing it in a way that makes sense.
    And part of the problem in developing this strategy is what 
you are dealing with. What's there on the land? If there are 
residential houses that are in the forests or cabins and things 
like that, you may have to use different tools and different 
techniques.
    So we can't say that there is a blanket tool that can be 
used to deal with this entire situation. It has got to be done 
on an individual, case-by-case basis, an that takes science, 
that takes data, that takes information to assess the risk and 
what is present on that land in order to determine what the 
best technique or tool is to use.
    Mr. Udall. So it is still the measurement, in many ways 
comes down to acres treated. And in some cases, you have to use 
certain technique----
    Mr. Cotton. Could I add to that?
    Mr. Udall. Certainly.
    Mr. Cotton. In fact, we even point out in our report that 
probably acres treated is not a good measurement of the 
accomplishment of the program.
    Mr. Udall. All right.
    Mr. Cotton. And the fact that it costs far more per acre to 
treat at the urban interface area, which is your concern--okay, 
the concern of your constituents--than it does to treat out in 
the all green forests, okay, and everything, we could 
accomplish a while lot more in the number of acres treated for 
the same amount of money that you would treat far less acres at 
the urban interface, because you are going to have to--you 
can't let it burn there. You are going to have to go in, you 
are going to have to do mechanical--we use that word, you are 
going to have to go in and cut trees.
    Mr. Joy. Mr. Udall, the report also points out, because 
they have used the acres treated, when the money comes down to 
the Forest Service, you understand the incentive is to do cheap 
stuff first. And that's what has been documented, and I think a 
number of places said they were running out of the cheap 
places.
    What is needed is an understanding on a landscape level and 
at different levels, of what is the nature of the threat, what 
is the nature of the hazard. And we are talking about hazard 
reduction as opposed to simply acres or board feet.
    Mr. Udall. So part of what your report was speaking to, or 
is looking at, is this whole issue of incentives and that we 
ought to look----
    Mr. Joy. Absolutely. Our report recommends that a step in 
the agency's strategy should be that they identify the nature--
how to overcome that particular problem.
    Mr. Udall. In my district, a lot of the issue is not so 
much about timber that is standing, but it is all the brush 
that is in place. And I don't know whether--I haven't read your 
report in great detail, but do you get to the issue of how much 
of these areas are a problem potentially because of brush and 
understory as opposed to areas where you have mature timber?
    Mr. Joy. I don't think we get to that detail. We do address 
it. The fact that you have, really, multi-level structuring 
that shouldn't be there, and it is different in different 
places. Some of it is going to be, especially when you have got 
mixed conifer coming up underneath a ponderosa pine--that stuff 
that there is no reason why it shouldn't be there--it is going 
to cause a fire risk, and it has commercial value. There is an 
awful lot that does not, a vast amount that does not. And so we 
are going to have to look at how we use fiber.
    Mr. Udall. Madam Chair, if I might ask just one last 
question, I think to Ms. McDougle?
    We talk about the 39 million acres. We--the GAO--talks 
about more resources directed your way. My sense, if the Forest 
Service received some more of these resources, you could tackle 
some of these other areas. But the question is, of the 39 
million acres, how are you prioritizing what of those areas you 
are going to treat?
    Ms. McDougle. We don't at the national level, you know. It 
is a bottom-up kind of thing. What we hope that we will have 
developed by the end of the year is a strategy by which the 
field leadership can train priorities. But they are the ones 
who are going to do it.
    Mr. Udall. So you really honor that Forest Service 
tradition of local control and local input and involvement?
    Ms. McDougle. Within a context.
    Mr. Udall. Within the overall context?
    Ms. McDougle. Yes.
    Mr. Udall. Thank you, Madam Chair. Can we submit some 
questions for the record?
    Mrs. Chenoweth. Certainly, we would welcome your questions.
    Mr. Udall. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Udall.
    I just want to close with a question to Mr. Truesdale. I 
understand that the Forest Service is embarking on an 
accelerated fuels reduction program in eastern Oregon. I was 
very pleased to hear about this. And I was wondering if you 
would mind, for the record, giving us some more details on 
that.
    Mr. Truesdale. We are looking at accelerating as many areas 
as we can. I believe that the idea of consolidating projects, 
doing large-scale areas is very useful, and we have started to 
emphasize that with the field.
    As far as any specifics for the eastern Oregon project, I 
didn't come prepared to do that, but I would be happy to send 
it to you. I don't have the information at hand. We talked to 
some of the staff, and I don't remember if your staff was 
there. I believe we got some information to your staff 
yesterday. We will try to follow up with a formal package right 
after the hearing. I will do that for you.
    Mrs. Chenoweth. I would appreciate that. Thank you very 
much.
    I do want to mention that back in 1988 there was a plan 
issued by the Forest Service entitled, ``Forest Health Through 
Silviculture and Integrated Pest Management Control: A 
Strategic Plan.'' That plan itself, in 1988, although it is 
common knowledge that, once the pests attack a forest then in 
its wake, that attack leaves that forest more vulnerable to 
catastrophic fire, it didn't deal with the fire control then.
    In 1994, the Forest Service issued a report, ``The Western 
Forests Health Initiative Strategic Plan,'' which did deal with 
the growing risk of catastrophic fire. We are now, five years 
later, and we haven't moved from this point one. We are still 
dealing with things in the office, with the exception of the 
approximate 1 million acres out of 40 million acres, or 39 
million acres, one-39th of the problem has been dealt with. And 
the problem is catastrophic in nature. So that is setting aside 
the normal management that should occur in a forest that keeps 
the forest healthy.
    On the average, while a healthy forest, it is agreed, would 
contain 40 trees per acre. We are now in a situation where the 
per-acre load is 400 trees per acre.
    So, you know, this country was built on the fact that 
people could see the problem and put the shoulder to the wheel 
and grease the elbows and start working in the field. And that 
is what we need.
    Ms. McDougle, I am aware of the fact that you went through 
some pretty intense questioning today. And I know that the 
members are very sincerely concerned because we live and work 
in areas in our district that are facing these catastrophic 
collapses in our national forests, and, hence, with our 
communities, it is a very alarming situation. And you have been 
in this position, or in this Department, ever since I arrived 
at the Congress.
    And whether it is from bottom-up or top-down, I don't know, 
because the bottom-up blames the top-down. And somehow we are 
not getting the work done.
    When we deal with only 1 million acres out of 39 million 
acres of catastrophic acres that could be vulnerable to 
catastrophic fire, and likely will be, we are ignoring a trust 
that the American people placed in us to take care of their 
asset and their resources.
    To even suggest that dealing with 1 or 2 million acres is 
what we are going to do and that is it, you know, the rest of 
the American people as well as this panel, this Subcommittee, 
is saying to this administration, but what about the other 39 
million acres that will collapse and will be destroyed without 
attention?
    So, that is the point that Mr. Hill made in his report, 
that to render the necessary attention, you must ask for the 
necessary resources because we are at a state of near collapse 
in at least 39 million acres of our forests. And that is 
growing exponentially.
    My concern is that we are dealing almost with a single 
focus, not realizing that there is a chain of concepts that 
must work together in order to have good forest health. We need 
to harvest it and prune it like we would our own gardens.
    Without good forest health, we lose wildlife habitat, and 
then we lose soil stability, and then we lose the clean water. 
We lost watershed stability. And our natural resources are the 
total losers, and the American people are the total losers 
because we are focusing strictly on clean water, ignoring the 
fact that we are losing wildlife habitat, ignoring the fact 
that we are losing that dynamic in that balance in a good 
growing and healthy forest.
    So my plea to you is that the Forest Service once again 
look at the whole picture and not look at just one link in the 
chain, and that you look at the entire 39 million acres that is 
growing year by year, and not look at just 1 million acres of 2 
million acres.
    I realize that this has been a tough hearing. It was tough 
for me to read Mr. Hill's report. And I know it is equally as 
tough on you, Ms. McDougle. But I would like a commitment from 
the Forest Service that we not just focus on clean water, or 
just focus on the aesthetics. We are big enough to get our 
minds around this problem, and then put the shoulder to the 
wheel and get the labor out there in the field to begin that 
necessary road back to forest health.
    Mrs. McDougle, I would like to offer you a final statement 
or comment, should you wish.
    Ms. McDougle. I don't think it would be very difficult at 
all for us to, as you say or I think you said, be more 
comprehensive in what we are doing. And we are doing that in a 
number of ways, and I hope the next time that I am before you 
we can talk about all the progress we have made on the 
strategy.
    Mrs. Chenoweth. Thank you, Ms. McDougle. I look forward to 
your new report.
    Mr. Hill, do you have any final comments?
    Mr. Barry Hill. Well, we share the concerns that all the 
members shared today. There is a need for urgency, I think, in 
dealing with this problem. And, unfortunately, the Forest 
Service has been kind of studying it and re-studying it for a 
number of years, and the problem continues to get worse. I 
mean, we would hope that they aggressively this time develop a 
strategy, implement it, see it through, hold the managers at 
all levels of the organization accountable for getting the job 
done.
    And what we would like to see, I think, are maybe some 
defined performance measures and timeframes laid out so it is 
easier to hold people accountable in getting this task done.
    Mrs. Chenoweth. Thank you, Mr. Hill. I would go one step 
further. I am anxious to see the labor in the field.
    So I want to thank the witnesses again for your fine 
testimony--all of you. And we will welcome the questions from 
the minority, and we will also be submitting additional 
questions.
    My thanks to the GAO for their good work on this report. 
And should you wish to amend or add to your testimony, you have 
10 working days in order to do so.
    Again, thank you very much. And this hearing is adjourned.
    [Whereupon, at 4 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
    [GRAPHIC] [TIFF OMITTED] T9491.001
    
    [GRAPHIC] [TIFF OMITTED] T9491.002
    
    [GRAPHIC] [TIFF OMITTED] T9491.003
    
    [GRAPHIC] [TIFF OMITTED] T9491.004
    
    [GRAPHIC] [TIFF OMITTED] T9491.005
    
    [GRAPHIC] [TIFF OMITTED] T9491.006
    
    [GRAPHIC] [TIFF OMITTED] T9491.007
    
</pre></body></html>
